Tennessee Valley Region




Front cover photo: Kingston Plant
Table of Contents
Message from the Inspector General.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

Executive Summary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

Office of the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10

Special Feature .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16

Noteworthy Undertakings.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20

Inspections.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24

Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

Investigations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36

Legislation and Regulations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42

Appendices.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46

Appendix 1 – Index of Reporting Requirements
	 Under the Inspector General Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

Appendix 2 – Audit and Inspection Reports Issued. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48

Appendix 3 – Audit and Inspection Reports Issued With Questioned and
	 Unsupported Costs and Recommendations for Better Use of Funds.  .  .  .  .  .  .  .  . 52

Appendix 4 – Audit and Inspection Reports with Corrective Actions Pending.  .  .  . 54

Appendix 5 – Investigative Referrals and Prosecutive Results.  .  .  .  .  .  .  .  .  .  .  .  .  . 55

Appendix 6 – Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56

Glossary, Abbreviations, and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57




                                                                                                                                                                                                    t
                                                                                                                                                                                                    v
                                                                                                                                                                                                    a

                                                                                                                                                                                                    3
                                                                                                                                                                                                    o
                                                                                                                                                                                                    i
                                                                                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                                                                    g
 Rebuilding the Foundation.            Message from the Inspector General




Semiannual Report | Rebuilding the Foundation.
Message From The Inspector General
Change is coming to TVA… and                 has given itself to righting the wrong.
much of it is internally driven.             What we are seeing is not for “show”
Undoubtedly, the coal ash spill at           but a true commitment to change. The
                                             culture which in part led to the Kingston
the Kingston plant on December
                                             ash spill is being thoroughly dissected
22, 2008, set some of those                  and analyzed by experts brought in with
changes in motion, but the TVA               a charge by TVA management to find
Board and TVA management                     out what needs to be “fixed.” Just as
have reacted with a commitment               importantly, TVA is aggressively sifting
to make the changes necessary                through its institutional risks with a
                                             focus that inspires confidence.
to make TVA better. Yes,
Kingston was an environmental                This inspiring story is not a story easily
tragedy, but ultimately the TVA              told by TVA. Its damaged image makes
that is emerging is likely to be             any positive story told by TVA suspect.
better able to serve the needs               Fortunately, the TVA Board and TVA
                                             management appear to be committed
of Valley residents. As we have
                                             to doing the right thing whether or not
pointed out in our reports on                they get credit for it. The fact is that
Kingston, this was a disaster                TVA is on the move… and in the right
that did not need to occur.                  direction. We report on some of that
                                                                                          work of the team exposed fraud against
That is, however, true of most               in the “Special Feature” section of this
                                                                                          both TVA and the Department of
failures whether personal or, as             semiannual report.
                                                                                          Agriculture in regard to loans made to
in the case of TVA, institutional.           While the Kingston coal ash spill            two businessmen in Kentucky. Those
And as with most failures,                   seems to have eclipsed everything else       men have now been sentenced to
there are new opportunities for              during this reporting period, the men        incarceration in a federal penitentiary.
                                             and women of the OIG went about the          This work typifies the collaborative
growth and TVA is seizing those
                                             work of performing other inspections,        effort of the various IG offices around
opportunities.                                                                            the United States.
                                             audits, and investigations that saved
The Office of Inspector General at TVA is    TVA money and made its operations
                                                                                          We are grateful for the support that
more than a proverbial “watchdog.” In        better. We note those in this report
                                                                                          we have received this reporting period
many ways we chronicle the history of        and among them, one investigation
                                                                                          from both Congress and the TVA Board,
the institution. Our inspections, audits,    that has been singled out for special
                                                                                          particularly in regard to our Kingston
and investigations over the years weave      recognition. I am particularly pleased
                                                                                          reports.
TVA’s story that is at times inspiring       that Senior Special Agent Craig Yates
and at times distressing. Our two            of our office was given an exceptional
inspections that assessed TVA’s reaction     performance award for his role on the
to the Kingston coal ash spill tell a tale   Hickman Mills prosecution team. The
that is mostly distressing. A noble          award by the Council of the Inspectors
institution with a proud heritage forgot     General on Integrity and Efficiency          Richard W. Moore
its roots. Its reputation has been sullied   (CIGIE) was for a joint effort by law        Inspector General
both by the event and its failures in how    enforcement including special agents of
it reacted to it.                                                                                                                    t
                                             the Department of Agriculture’s Office
                                             of Inspector General as well as special                                                 v
What is now happening within TVA,                                                                                                    a
                                             agents of the Internal Revenue Service’s
however, is inspiring. Instead of taking
                                             Criminal Investigation Division. The
defensive half-steps, TVA management                                                                                                 5
                                                                                                                                     o
                                                                                                                                     i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                     g
 Rebuilding the Foundation.            Executive Summary




Semiannual Report | Rebuilding the Foundation.
Representative Inspections And Audits
The Tennessee Valley Authority               cause analysis was handled by TVA in a       (3) exceptions were arbitrarily granted
(TVA) continues to deal with the             manner that avoided full transparency        in seven of the ten key steps required in
financial consequences brought               and accountability for management            a maintain and gain transaction;
                                             practices in order to preserve TVA’s         (4) failure to consistently retain
about by the December 2008
                                             litigation strategy; (2) TVA was aware       records for applications rejected that
Kingston ash spill as it cleans              of “red flags” raised over a long period     sufficiently demonstrated the rationale
and restores the community to                that signaled the need for safety            for the decision impacted the integrity
its pre-spill state. This report             modifications to the ash ponds which,        of the Maintain and Gain Program;
describes the Office of Inspector            if addressed, could possibly have            and (5) the program could undermine
General (OIG) initiatives to                 prevented the spill; (3) factors other       TVA Board’s 2006 Land Policy and its
                                             than the “slimes” layer identified as the    apparent goal of restricting residential
identify and better understand
                                             trigger for the spill may have been of       development on TVA shorelines.
the root causes of the spill                 equal or greater significance;
and its assessment of TVA’s                  (4) despite internal knowledge of risks      > Distributor Audits
response to the community’s                  associated with the ash ponds and            During the fiscal year, the OIG launched
needs after the event. Following             discussions of placing the ponds under       a new contract compliance audit pro-
is a brief synopsis of the                   TVA’s Dam Safety Program, thereby            gram related to contracts between
more significant inspections,                subjecting the ponds to more rigorous        TVA and its power distributors. These
                                             inspections and engineering, TVA’s risk      reviews began in the OIG Inspections
audits, and investigations that
                                             management program failed to identify        group; however, in January 2009, the
were performed during this                   ash management as a risk; and                OIG established the Distributor Audits
semiannual period.                           (5) attitudes and conditions that            group to focus solely on these reviews
                                             emanated from a legacy culture resulted      and related issues. During this semian-
> Inspections                               in ash being relegated to the status of      nual period, the OIG completed four
An initial review by the OIG of TVA’s        garbage at a landfill rather than treated    distributor reviews and found:
response to the Kingston ash spill           as a potential hazard to the public and      (1) customer classification and meter-
found: (1) TVA had not properly              the environment.                             ing issues; (2) contract compliance
implemented the National Incident
                                             TVA’s Maintain and Gain Lakeshore            issues; (3) lack of guidance by TVA to
Management System, which hampered
                                             Management Program was designed              determine if a distributor’s cash re-
communications and delayed certain
                                             to allow consideration of proposals          serves are excessive; and (4) opportuni-
emergency response actions following
                                             to obtain lake access rights at the          ties for TVA to improve its oversight of
the spill; (2) TVA’s quick response to the
                                             landowner’s property by swapping             distributors.
media and public inquiry resulted in the
release of inaccurate and inconsistent       access rights already available at other
information, which resulted in criticism     properties the landowner possessed.          > IT Audits
of TVA and caused reputational harm          The program required transactions            Our audit of general computing controls
to the company; and (3) while TVA            that would result in no net loss, and        related to a TVA control system found
responded effectively to victims             preferably a net gain to TVA, of public      security weaknesses in logical security,
affected, failure to timely communicate      shoreline. Our review of the program         physical and environmental security,
TVA’s claims policy and decisions            found: (1) certain actions by TVA            and general security controls. In ad-
increased settlement expectations            employees and others created an              dition, we found TVA lacked a process
for some.                                    appearance of preferential treatment         for evaluating audit findings that would
                                             to some that exposed TVA to public           allow it to identify similar issues in
Our second review of the Kingston            criticism and reputational harm;             other systems, resulting in repeated        t
ash spill focused on a root cause            (2) no protocol in the process existed       findings being reported by the OIG.         v
study performed by a firm contracted         to assure a transparent and objective                                                    a
by TVA and TVA’s ash management              review of applications submitted by          An evaluation of the effectiveness of
practices. We found: (1) the root            those with possible conflicts of interest;   agency-wide controls and processes          7
                                                                                                                                      o
                                                                                                                                      i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                      g
    in place to monitor, identify, classify,   results of their internal inquiry. Investi-   back injury in 1984 and who collected
    and respond to cyber security events       gations also played a significant role in     partial compensation payments since
    found TVA: (1) lacked a comprehensive      the review of TVA’s maintain and gain         that time. The recipient has since
    strategy; (2) was not adequately           lakeshore management program per-             been vocationally rehabilitated to such
    monitoring its information technology      formed by Inspections. We continued           extent that his current reported income
    (IT) assets for cyber security events;     to focus on major fraud investigations        far exceeds his expected income as a
    (3) did not always follow its incident     and continued our participation on Task       painter. Though the recipient properly
    response policies and procedures; and      Forces with other federal, state, and         reported his income to the Department
    (4) was not effectively using existing     local agencies. We conducted numer-           of Labor (DOL), our investigation
    resources capable of increasing IT         ous administrative cases that resulted in     prompted a DOL review which
    security monitoring levels and coverage.   both savings to TVA and administrative        determined he is ineligible for workers’
                                               actions. Following is a brief summary of      compensation benefits.
                                               the more significant work completed by
    > Internal Control                                                                      A call to our Empowerline resulted in
       Reviews                                 Investigations during this period.
                                                                                             an investigation into an allegation that
    During the second semiannual period        In the last semiannual report, we             a TVA-owned tugboat sank in TVA’s
    in fiscal year 2009, the OIG continued     reported the guilty plea of Heraeus           Muscle Shoals harbor. The Empowerline
    its support of TVA initiatives to comply   Corporation to a one-count Information,       caller reported that the sunken vessel
    with Section 404 of the Sarbanes-Oxley     charging false statements relating            discharged 2,500 gallons of diesel fuel
    Act of 2002 (SOX). In this period, the     to Clean Air Act requirements in an           into the harbor, and that the sinking was
    OIG completed tests of controls for        Environmental Crimes Joint Task Force         due to possible malfeasance on the part
    twenty-seven business processes,           case brought in the Eastern District of       of TVA management. Our investigation
    five IT general control domains, and       Tennessee. The company was fined              revealed, however, that the tugboat
    eleven applications. In addition, the      $350,000 and sentenced to 18 months           submerged only partially, the amount
    OIG completed year-end, remediation,       probation. During this reporting period,      of bilge fuel discharged was 25 gallons,
    and nonoccurrence testing for four IT      the plant manager also pled guilty to a       and despite the measures taken, a
    general and four application controls.     one-count Information, charging him           malfunctioning pump was the causal
                                               personally with making false statements       factor.
    > Contract Audits                         in, and omitting information from,
    This semiannual period we completed        documentation required under the
    ten preaward audits of cost proposals      Clean Air Act. The plant manager was
    submitted by prospective contractors       sentenced to one year probation and
    to provide major equipment and             50 hours of community service.                    A confidential connection for reporting fraud,
                                                                                                         waste or abuse affecting TVA.
    services to TVA. These audits identified
                                               A (now former) TVA Program Manager               www.OIGempowerline.com
    $50.5 million of potential savings                                                              1-877-866-7840
                                               was indicted in Circuit Court in
    opportunities for TVA to negotiate.                                                          EmPowerline™ is sponsored by the Office of the Inspector General
                                               Tennessee for Forgery and Passing                              and operates independently of TVA.


    We also completed seven compliance         Forged Instruments based on a
    audits of contracts with expenditures      falsified invoice to a TVA contractor for     At the request of plant management,
    totaling $392 million and identified       property damage allegedly sustained           we investigated a computer use
    potential overbillings of $6.7 million.    during a paid move. The invoice falsely       practice with security and safety
                                               represented work done to repair the           implications. The practice involved the
                                               damage. The OIG issued a report to TVA        use of commonly known passwords
    >R
      epresentative
                                               management and after receiving notice         and identification numbers within a
     Investigations
                                               of proposed termination, the employee         work group that allowed individuals
    During this period, TVA experienced the
                                               resigned.                                     in the group to set and release holds
t   Kingston ash spill which had a signifi-
                                                                                             during projects. The practice came to
v   cant environmental impact. Investiga-      A workers’ compensation benefits              light following a release authorization
    tions worked closely with Audits and       investigation resulted in projected
a                                                                                            not made by the individual setting
    Inspections to determine the root causes   savings to TVA of $472,007. The               the hold. The release could have had
8   of the event and how TVA reported the      recipient was a painter who sustained a

o
i
    Semiannual Report | Rebuilding the Foundation.
g
                                                                                                                  Statistical Highlights
serious worker safety implications           a noose in one of the                                 April 1, 2009 ~ September 30, 2009
though no event actually occurred.           photographs. The noose
In addition, plant management was            was cut down, and an               Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
concerned that statements regarding the      investigation ensued.              Questioned Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $6,743,618
practice differed among employees. Our       During the course of the           Disallowed Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $2,798,657
investigation led to a report published      investigation, a second            Funds Recovered. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $908,578
both to plant management and the             noose-related matter was           Funds to be Put to Better Use. . . . . . . . . . . . . . . . . . $50,570,129
Nuclear Regulatory Commission (NRC).         discovered. A Shawnee              Funds Realized by TVA. . . . . . . . . . . . . . . . . . . . . . . . . . . $4,722,979
                                             Unit Operator had tied             Investigations Opened. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 194
We also investigated the inaccurate          a noose during his shift           Investigations Closed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 223
reporting of the presence of two             sometime in February 2008          Fines/Recoveries/Restitution/Savings. . . . . . . . . . . . $493,065
heaters at Browns Ferry Nuclear              which was witnessed by             Criminal Actions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Plant (BFN) during freeze protection         an African American Unit           Administrative Actions (No. of Subjects) . . . . . . . . . . . . . . . . . . . 6
program reviews dating back to 2003.         Operator. Another employee Inspections Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
The heaters are part of capital asset        told the Operator tying the
protection not associated with direct        noose he could be fired for
nuclear operation equipment. We issued       doing so, and he immediately
a report documenting the history and         untied the noose and apologized. The           The OIG investigated a TVA manager
likely causal factors to TVA Management      facts were presented to the United States who procured materials used at a fossil
which shared the information with            Attorney’s Office, and forwarded to the        plant and who allegedly benefited
the NRC.                                     United States Department of Justice,           personally from his procurement
                                             which declined criminal prosecution.           choices. Specifically, the manager
The OIG investigated the sale of items on
                                             The OIG published a report to TVA              bought materials from a vendor which
eBay bearing identifiers associated with
                                             management on the first case suggesting purchased them from a third-party
the BFN. The investigation revealed
                                             sensitivity training at the local level and    company of which the subject manager
that the seller, L&W Surplus, L.L.C., buys
                                             management concurred.                          was half owner. The manager had
and sells industrial surplus equipment
                                                                                            not been required to submit annual
and has had a contractual relationship       The OIG investigated an allegation             financial disclosures until recently,
with TVA since 2007. Our investigation       that an employee of a local utility had        but the manager did disclose the third
revealed that the suspicious nature of       defrauded TVA’s energy right® Program,         party nexus when the submission was
the items resulted from the inadequate       which in part funds conversions                required. The manager subsequently
inventory and itemization of items           from gas to electric water heaters, by         retired and prosecution was declined.
prior to their sale. A report was            approving disbursements to friends and
published to plant management                family members who did not make the            The OIG investigated computer misuse
delineating the issues.                      switch. The investigation substantiated        at a fossil plant, and determined that an
                                             the allegation and revealed additional         employee had been accessing porno-
The OIG investigated and substantiated
                                             unrelated fraudulent activity. Though          graphic Web sites for at least five years.
an allegation that an administrative
                                             prosecution was declined, the employee         The employee was suspended for 30
employee changed her husband’s
                                             was forced to resign and his wages             days. The OIG continues to work with
leave schedule to reflect that he was
                                             were garnished to offset the fraudulent        TVA Information Services to determine
working when he was on leave. The
                                             payments.                                      and implement more effective measures
administrative employee retired before
                                                                                            to lessen computer misuse.
the matter was concluded and her             The OIG continued to monitor tempo-
husband’s schedule was corrected.            rary living expense fraud and substanti-       During this review period, we opened
                                             ated an allegation that a contractor had       seven criminal workers’ compensation
Two hangman’s noose matters were
                                             obtained more than $6,000 in expenses          cases based on information developed
concluded in this reporting period at                                                                                                                                                 t
                                             to which he was not entitled through           through our data mining program.
the Shawnee Fossil Plant. The first                                                                                                                                                  v
                                             the submission of false statements. The        These cases involve recipients receiving
matter originated in January 2009 when
                                             contractor died prior to being indicted.       workers’ compensation benefits while                                                     a
a supervisor reviewing photographs of
                                                                                            earning income from other sources.
scaffolding built for an outage noticed
                                                                                                                                                                                    9
                                                                                                                                                                                    o
                                                                                                                                                                                    i
                                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                                                    g
 Rebuilding the Foundation.            Office of the Inspector General




Semiannual Report | Rebuilding the Foundation.
ORGANIZATIONAL PROFILE                                                                 > OIG STRATEGIC PLAN
The OIG is headquartered in the TVA East Tower in Knoxville, Tennessee,
across from the TVA headquarters in the West Tower. The OIG has a major                Mission
satellite office in the Edney Building in Chattanooga, Tennessee, where the            Promote excellence in TVA’s operations
Inspections unit and several investigators are located. There is also a staffed        through the conduct of investigations,
field office at the Watts Bar Nuclear Plant, Tennessee, to which an auditor and        audits, inspections, and advisory services
investigator are assigned. In addition, the Investigations unit has staffed field      designed to promote economy, efficiency,
offices in Nashville, Tennessee; Huntsville, Alabama; and Mayfield, Kentucky.          and effectiveness and prevent and detect
                                                                                       fraud, waste, and abuse
As of September 30, 2009, the OIG had a total staff of 103. The Audit and
Inspections units are composed of 63 individuals, the Investigations unit is           Vision
composed of 30 individuals, and the Administrative staff is composed of                To be a highly effective organization that
10 individuals.                                                                        promotes positive change by identifying
The number of personnel located at each staffed office is as follows:                  opportunities for improvements in the
Knoxville–76, Watts Bar Nuclear Plant–2, Chattanooga–16, Nashville–2,                  performance and efficiency of TVA’s programs
Huntsville–4, and Mayfield, Kentucky–1.                                                and operations


                                                                                       Core Values
                                                                                       • Independence
                                                                                       • Integrity
                                                                                       • Innovation
                                                                                       • Initiative
                                                                                       • Quality
                                                                                       • Results
                                                                                       • Leadership
                                                                                       • Teamwork
                                                                                       • Communication
                                                                                       • Respect for Individual
 GOALS &
OBJECTIVES
                                                   PERFORMANCE
                                      • Focus efforts on areas of highest impact and risk
                                      • Ensure processes are efficient and effective
                                      • Stay abreast of emerging issues and industry trends
                                      • Stay abreast of stakeholder concerns
                                      • Produce work that is timely, relevant, and
                                         of high quality




                  WORKFORCE                                                             STAKEHOLDER
    • Hire and retain a well qualified workforce                          • Improve stakeholder awareness of OIG
    • Maintain competitive pay and award programs that                   • Ensure stakeholders are kept informed
       allow for rewarding team and individual contributors               • Ensure stakeholders have an opportunity
    • Develop leadership, team and technical skills of                      to provide input in the annual audit planning
                                                                                                                                      t
       each employee                                                         process and each individual review,
       • Ensure accountability in individual performance                    as appropriate                                           v
    	         • Promote effective communication                                                                                       a

                                                                                                                                      11
                                                                                                                                      o
                                                                                                                                      i
                                                                                    Semiannual Report | Rebuilding the Foundation.
                                                                                                                                      g
     >O
       FFICE RESPONSIBILITIES
      AND AUTHORITY
     Created by the TVA Board of Directors
     in 1985, the TVA OIG became statutory
     under the Inspector General Act
     Amendments of 1988 (IG Act). The
     authority to appoint the TVA Inspector
     General (IG) was transferred to the
     President in November 2000 by
     Public Law No. 106-422.


     > OIG RESPONSIBILITIES                                                Charles A. Kandt
     • Promote economy and efficiency                                      Legal Counsel
        while preventing and detecting fraud,
        waste, and abuse.
     • Conduct and supervise audits,
        inspections, and investigations relating
        to TVA programs and operations.
     • Keep the TVA Board and Congress fully
        and currently informed concerning                                   Ronald Wise
        fraud and other serious problems,                                   Assistant Inspector
        abuses, and deficiencies relating to                                General, Administration
                                                                            and Government
        TVA programs and operations.                                        Relations
     • Recommend corrective actions
        concerning problems, abuses, and




                                                           >
        deficiencies, and report on the progress
        made in implementing such actions.
     • Assure work performed by nonfederal
        auditors complies with Government
        Auditing Standards.
     • Issue semiannual reports to TVA Board
                                                      Kay T. Myers
        and the Congress.                             Manager, Human
                                                      Resources
     > OIG AUTHORITY
     • Conduct any audit, inspection, or
        investigation the IG deems necessary
        or desirable.
     • Access all TVA records or other
        material.
     • Issue subpoenas and administer oaths.
     • Receive complaints and grant
        confidentiality.
     • Have direct and prompt access to
        the TVA Board.
     • Hire employees and contract for
t       services as necessary.
v
a

12
o
                                                      Phyllis R. Bryan
i                                                     Director, IT Audits
     Semiannual Report | Rebuilding the Foundation.
g
                     Richard W. Moore
                     Inspector General
           >




                     Ben R. Wagner
                     Deputy Inspector                           Stefanie D. Hoglund
                     General                                    Publlic Affairs Officer
           >




                     Robert E. Martin                           John E. (Jack)
                     Assistant Inspector                        Brennan
                     General, Audits and                        Assistant Inspector
                     Inspections                                General, Investigations
          >




                                                                >



Jill M. Matthews                           Gregory C. Jaynes
Deputy Assistant                           Deputy Assistant                                Nancy J. Holloway
Inspector General,                         Inspector General,                              Special Agent
Audits and Support                         Inspections                                     In Charge




                                           Lisa H. Hammer
David P. Wheeler                           Director,
                                                                                           Paul B. Houston
Director, Contract                         Financial and                                   Special Agent
Audits                                     Operational Audits                              In Charge



                                                                                                                       t
                                                                                                                       v
                                                                                                                       a

                                                                                                                       13
Louise B. Beck                             John H. Barrow III                                                          o
Audit Quality                              Project Manager
Manager                                    Emerging Issues                                                             i
                                                                      Semiannual Report | Rebuilding the Foundation.
                                                                                                                       g
     > ADMINISTRATION                             potential impact, sensitivity (including   	 • Financial/Operational Audits has
     The administrative section works              public and/or congressional interest),          lead responsibility for: (1) oversight
     closely with the IG, Deputy IG, and As-       and likelihood it will result in recom-         of TVA’s financial statement audit
     sistant IGs to address the day-to-day         mendations for cost savings or process          and related services performed by
     operations of the OIG and to develop          improvements. The result of the OIG             TVA’s external auditor; (2) reviews
     policies and procedures. Responsibili-        audit and inspections planning process          of TVA’s internal controls related to
     ties include operations for personnel         is a focus on those issues of highest           financial reporting, operational ef-
     administration, budget and financial          impact and risk of fraud, waste, abuse,         ficiency, and compliance with laws
     management, purchasing and contract           or in regard to IT, malicious, or other         and regulations; and (3) operational
     services, facilities, conferences, and        intrusion.                                      reviews to assess the results and
     government relations.                                                                         economy and efficiency of TVA
                                                   The Audits group, based in Knoxville,           programs.
                                                   conducts and/or supervises compre-
     >A
       UDITS AND INSPECTIONS                      hensive financial and performance          	 • IT Audits has lead responsibility
     The Audits and Inspections group per-         audits of TVA programs and operations.          for audits relating to the security of
     forms a wide variety of engagements                                                           TVA’s IT infrastructure, application
     designed to promote positive change           It consists of four departments—Con-            controls, and general controls asso-
     and provide assurance to TVA stake-           tract Audits, Distributor Audits, Finan-        ciated with TVA systems. This group
     holders. Based upon the results of the        cial/Operational Audits, and IT Audits.         also performs operational reviews
     engagements, the Audits and Inspec-                                                           of the effectiveness of IT-related
                                                   	 • Contract Audits has lead responsi-
     tions group makes recommendations to                                                          functions. In addition to its audit
                                                        bility for contract compliance and
     enhance the effectiveness and efficiency                                                      mission, IT Audits is responsible for
                                                        preaward audits. In addition, this
     of TVA’s programs and operations. The                                                         developing and supporting an inde-
                                                        group performs reviews of TVA
     group uses an impact- and risk-based                                                          pendent OIG computer network.
                                                        contracting processes and provides
     approach to develop an annual work
                                                        claims assistance and litigation      The Inspections group, based in Chat-
     plan. The group’s plan considers TVA’s
                                                        support.                              tanooga, Tennessee, seeks to ensure
     strategic plans, major management
     challenges, enterprise risk management        	 • Distributor Audits has lead respon-   that program objectives and operational
     process and results, and other input               sibility for contract compliance      functions are achieved effectively and
     from TVA management. The planning                  reviews of TVA’s distributors. This   efficiently. It performs both compre-
     model also evaluates each potential                group assesses compliance with the    hensive reviews and more limited scope
     engagement from the standpoint of ma-              terms of the power contracts be-      policy and program reviews. In accor-
     teriality (i.e., costs or value of assets),        tween TVA and its distributors.       dance with the Quality Standards for



                             TYPES OF AUDIT AND INSPECTION ISSUES

             Information                                  Operational Audits                             Contract Audits
          Technology Audits                               • Operational Inefficiency                        • Inflated Proposals
             • Unauthorized Access                     • Not Achieving Intended Results                  • Contract Overpayments
              • Inadequate Controls                         • Inferior Performance                        • Inferior Performance
             • Lack of Data Integrity                         • Legal/Regulatory                                   • Fraud
                     • Fraud                                    Noncompliance
                                                                    • Fraud
t
v
a
            Financial Audits                              Distributor Audits                                Inspections
         • Internal Control Deficiencies                   • Contract Noncompliance                   • Internal Control Deficiencies
14          • Material Misstatements                        • Misstatement of Power                      • Operational Inefficiency
o            • Legal Noncompliance                                Sales to TVA                            • Policy Noncompliance
                     • Fraud                                         • Fraud                                       • Fraud
i
     Semiannual Report | Rebuilding the Foundation.
g
Inspections, the objectives of the Inspections group include pro-
viding a source of factual and analytical information, monitoring
compliance, measuring performance, assessing the efficiency and         EXAMPLES OF CRIMES THE OIG
effectiveness of operations, and conducting inquiries into allega-      SEEKS TO UNCOVER
tions of fraud, waste, abuse, and mismanagement.                        • Contract Fraud
Audit and inspection findings vary depending on the objectives          • Economic Development Grant Fraud
of the project. Issues can be generalized into specific categories      • Bid Rigging/Collusion
depending on the type of engagement performed. The graphic              • False Claims (e.g., billing for services not
on page 14 shows some representative examples of audit and                  rendered or costs not incurred)
inspection issues commonly reported.                                    • False Statements
                                                                        • Defective Pricing
> INVESTIGATIONS                                                       • Computer Crimes
The Investigations group performs investigative activity related
to fraud, waste, and abuse in TVA programs and operations. It           • Product Substitution and
                                                                            Counterfeit Parts
conducts its work in accordance with the Quality Standards for
Investigations. The investigators maintain liaison with federal         • Conflicts of Interest
and state prosecutors and file a report with the Department of          • Bribery/Kickbacks
Justice whenever the OIG has reason to believe there has been           • Environmental Crimes
a violation of federal criminal law. Our investigators work with
                                                                        • Mail and Wire Fraud
other investigative agencies and organizations on special projects
and assignments, including interagency law enforcement task             • Theft of Government Property
forces on terrorism, the environment, and health care. Our inves-       • Employee Criminal Misconduct
tigative workload includes the following major categories:                 (e.g., purchase card misuse)

Contract Fraud – Defrauding TVA through its procurement of
goods and services.

Theft of Government Property and Services – Theft of TVA                 ACTUAL FRAUD SCHEMES
property and “schemes to defraud . . . designed to deprive indi-         INVESTIGATED BY THE OIG
viduals, the people, or the government of intangible rights, such
as the right to have public officials perform their duties honestly.”    • Falsification of information in Economic
                                                                              Development grant application and bid
Environmental Crime – Any act which violates an environmen-                   proposals
tal protection statute.                                                  • Un
                                                                              allowable or unauthorized purchases
                                                                             (e.g., use of TVA funds for personal
Health Care Fraud – The intentional misrepresentation of health              luxury items)
care services, expenses, billings, needs, or coverage that results in    • Misallocation of costs among projects
unauthorized payments or other benefits.
                                                                         • Mi scharging for expenses not incurred
Illegal Hacking into TVA Computer Systems – Accessing a                      or work not performed (i.e., phantom
                                                                             charges)
computer without authorization or exceeding authorized access.
                                                                         • Misrepresentation of project status
Workers’ Compensation Fraud – Includes employee fraud,                       and progress in order to continue
medical fraud, premium fraud, and employer fraud, most often a               receiving funds
false claim of disability to receive benefits.                           • Falsification of test results or other data
                                                                         • Disposal of hazardous waste in violation
Employee Misconduct – Generally includes misuse of TVA                        of Federal regulations                          t
furnished equipment, travel voucher fraud, and a multitude                                                                    v
                                                                         • Influencing an award to a family
of miscellaneous matters.                                                                                                     a
                                                                                member or friend

                                                                                                                              15
                                                                                                                              o
                                                                                                                              i
                                                                             Semiannual Report | Rebuilding the Foundation.
                                                                                                                              g
S p e cia l
F e at u r e :

Recovery Following
The Kingston Ash Spill—
Restoring An Agency
And A Community
In Crisis




Semiannual Report | Rebuilding the Foundation.
As discussed in the previous semiannual report to Congress,
TVA has been portrayed by many as an agency in crisis.
Because of nationally-publicized challenges such as decreasing
revenues, multiple lawsuits against TVA and an unprecedented
environmental spill publicly compared to the Exxon Valdez, TVA’s
stability and long-term health has been called into question.
“TVA is undeniably being challenged on a number of fronts,”
says TVA Inspector General Richard Moore.

The Kingston Fossil Plant coal ash spill        was aware of “red flags” that were
of December 22, 2008, in which 5.4 mil-         raised over a long period of time
lion cubic yards of ash poured onto ad-         signaling the need for safety modifica-
jacent land and into the Emory River, is        tions to TVA ash ponds.
one of the largest environmental disas-
ters in American history. The TVA OIG         • AECOM overemphasized the “slimes”
released two reports—one in June 2009            layer as a trigger for the Kingston spill.
critiquing TVA’s response to the ash             Marshall Miller concluded that factors
spill and another in July 2009 evaluat-          other than the “slimes” layer may have
ing TVA’s root cause analysis of the spill.      been of equal or greater significance.

The second report assessing TVA’s root        • Despite internal knowledge of risks
cause analysis also evaluated TVA man-           associated with ash ponds, TVA’s
agement’s role regarding ash storage             formal Enterprise Risk Management
and found that managing ash storage              (ERM) process, which began in 1999,
was a low priority. The TVA OIG hired            had not identified ash management
Marshall Miller & Associates (Marshall           as a risk. While over the years there
Miller), a nationally-recognized engi-           was internal discussion about placing
neering consulting firm, to assist with          the ash ponds under TVA’s Dam Safety
the technical aspects of the review. TVA         Program, which would have required
hired AECOM Technology Corporation               more rigorous inspections and engi-
(AECOM) to complete the initial root             neering of the ash ponds, TVA chose
cause analysis. The objectives of the            not to do this.
TVA OIG review were to (1) provide an         • Attitudes and conditions at TVA’s fossil
independent peer review of AECOM’s               fuel plants that emanate from a legacy
root cause analysis and (2) review TVA’s         culture impacted the way TVA handled
ash management for weaknesses.                   coal ash. Ash was relegated to the
In summary, the TVA OIG peer review              status of garbage at a landfill rather
found that:                                      than treating it as a potential hazard
                                                 to the public and environment.
• TVA management handled the root
   cause analysis in a manner that avoid-     TVA management generally agreed with
   ed transparency and accountability in      the findings of the report and has sub-
   favor of preserving a litigation strate-   sequently hired McKinsey & Company, a
   gy. TVA elected not to publicly disclose   consulting firm, to address the cultural
                                                                                              t
   management practices that may have         issues brought to light as a result of
                                                                                              v
   contributed to the Kingston spill.         the ash spill. TVA also hired Stantec,
                                              an engineering company, to rigorously           a
• TVA could have possibly prevented          inspect, evaluate, and make recommen-
   the Kingston spill if it had taken rec-    dations on ash storage facilities at all its    17
   ommended corrective actions. TVA           fossil plants.                                  o
                                                                                              i
                                       Semiannual Report | Rebuilding the Foundation.
                                                                                              g
                                                                                                                      Kingston Fossil Plant

     Additionally, on January 9, 2009, TVA        completed by next spring, is the first      The East Tennessee resident, who
     retained the firm of McKenna Long            phase of a multi-billion-dollar program     authored the editorial, implores
     & Aldridge, LLP, a national expert in        designed to make TVA a leader in coal       “Kingstonians” to give TVA a chance
     independent investigations, to conduct       ash disposal.                               to “redress the issues at hand” and to
     an independent factual investigation of                                                  remedy any economic harm. “There are
     the Kingston spill and its implications      TVA has spent nearly $230 million           few citizens in Roane County who have
     relating to systems, controls and culture.   this year to clean up the Kingston ash      not been helped by the huge presence
     On July 21, 2009, the Board approved         spill, according to TVA Environmental       of the Tennessee Valley Authority at
     a resolution proposed by Director Tom        Executive Anda Ray who was also             their doorstep,” she writes. She goes on
     Gilliland, chairman of the Audit, Ethics     quoted in the September 23rd article.       to credit the opening of TVA’s Kingston
     and Governance Committee, to address         TVA anticipates spending $1.2 billion       steam plant with creating jobs for
     the failures identified in the McKenna       to clean up the Kingston spill and up       residents.
     report. At the same board meeting,           to $2 billion over the next eight years
     the Board directed TVA management            to convert five other wet ash storage       “The South was not known for well-
     to develop an extensive remediation          plants to dry ash storage systems.          paying jobs in the 1950s,” she writes,
     plan in response to the independent                                                      “but TVA changed that for many
                                                  TVA executives have stated repeatedly       families. Kingston became an enclave of
     investigation of the Kingston ash spill,     that they want the area impacted by the
     various reports by the TVA Inspector                                                     comfortable middle-class families with
                                                  spill to be “better” than it was before     good schools enriched by funding that
     General and recommendations by TVA           the incident. As part of this initiative,
     management.                                                                              came with each child of a TVA or federal
                                                  TVA set aside approximately $40 million     employee. Besides the jobs created by
     “The TVA Board and management have           in economic development funds for           TVA, the recreational benefits have been
     been very receptive,” IG Moore said          locally-identified projects to help Roane   tremendous. Before TVA, Kingston was
     of the TVA OIG report findings. “They        County and its communities.                 not situated on a lake suitable for bass
     understand what the issues are and           TVA and the elected leaders of
                                                                                              fishing, jet skiing or boating. It was on a
     TVA is doing what we think needs to          Roane County and its communities
                                                                                              river that flooded at the whim of heavy
     be done to address the findings.”            announced in September that they
                                                                                              rains. Homes did not dot the shoreline,
                                                                                              as they do now, because they would
     TVA recently completed removing              are establishing the Roane County
                                                                                              likely have been washed away…”
     one-third of the coal ash dumped into        Economic Development Foundation
     the Emory River from its Kingston            to administer the funds provided by         Though TVA has received an onslaught
     Fossil Plant.                                TVA. The elected leaders and TVA            of public scrutiny and criticism since
                                                  representatives are serving as the          the Kingston ash spill, there are a
     TVA Chief Executive Officer and              foundation’s board and have set criteria    number of Kingston residents who
     President (CEO) Tom Kilgore was              for considering requests for funding        have expressed gratitude to TVA for
     quoted as saying in a September 23           projects. The foundation has already        their work in trying to restore their
     Chattanooga Times Free Press article         granted requests to provide $6.7 million    lives. TVA’s Environmental Executive
     that work crews had excavated                for revitalization of the Harriman          Anda Ray has repeatedly stated that the
     1 million cubic yards of ash that            downtown area and to improve the            ultimate goal is not just to restore the
     spilled last December into the river         Kingston wastewater treatment system.       area affected by the spill, but to make it
     beside the Kingston coal plant. Some                                                     better. She has encouraged residents to
     580,000 cubic yards of the ash has           TVA has also been working diligently
                                                                                              envision what that would entail and to
     been shipped to a lined landfill in          to compensate Kingston residents
t                                                                                             provide their insight to TVA employees
     Perry County, Alabama.                       affected by the ash spill. A recent
v                                                                                             working on the restoration.
                                                  editorial to a local newspaper perhaps
a    “Since we had the biggest accident with      says it best that TVA both literally        As of this writing, TVA has purchased
     coal ash in the industry, I want to have     and metaphorically changed the              138 properties. They’ve settled 95 in-
18   the best cleanup program of any utility,”    waterscape of Kingston long before the      surance claims and have provided help
     Kilgore said. The cleanup, slated to be      unprecedented ash spill.                    to more than 750 residents through
o
i
     Semiannual Report | Rebuilding the Foundation.
g
the TVA Outreach Center established             say hello, to inquire if we had any             • Assessing both inherent and
in downtown Kingston. TVA also con-             questions, needs and/or concerns,                  residual risks.
tracted with a mental health provider           were graciously welcomed too. We also
to provide residents a professional with        must recognize the 24/7 efforts of the          • Articulating the company’s risk
whom to discuss their feelings and how          water and road crews, and the amazing              tolerance with respect to various risks
the ash spill affected them.                    progress that has been made in such a              that have been identified.
                                                short time.
After the initial onset of the crisis, TVA                                                      • Enhancing governance by formally
set up a hotline phone number to which          “Our family has owned this home for                documenting risk policies and
more than 600 residents have called             over 40 years, and neither of us want              procedures.
since December 22, placed 23 families in        or plan to leave. We have great hopes
                                                                                                • Enhancing board communication
hotel rooms, and provided cell phones           that not only will the area be returned
                                                                                                   with respect to the ERM program
to residents whose phone service was            to ‘like it was’ status, but that status will
                                                                                                   and results.
temporarily disconnected. TVA also              become ‘better than it was.’”
provided VISA debit and restaurant                                                              The findings from our reviews of the
cards for purchase of meals and other           TVA’s efforts continue with an
                                                                                                ERM program and from recent reviews
sundries to those displaced from their          operational outreach center and mental
                                                                                                related to the Kingston Fossil Plant
homes and gift cards for Christmas to           health services, a well-water testing
                                                                                                ash spill solidify our conclusion that
one family.                                     process for residents, air testing, a toll-
                                                                                                TVA needs to drive ERM further down
                                                free number regarding insurance claims,
                                                                                                into the organization to increase the
TVA was also responsive in attempting           interim housing including furnishings
                                                                                                future likelihood that known risks will
to provide protection from potential            and amenities and a medical outreach
                                                                                                be identified and addressed. Based on
environmental hazards caused by the             effort driven by Vanderbilt University
                                                                                                our reports and the recent Kingston
spill by delivering bottled water and           and its medical center and Oak Ridge
                                                                                                catastrophic event, TVA has made ERM
several hundred air filters to residents        Associated Universities to assess the
                                                                                                staffing and process changes. Specifi-
in the first two weeks.                         health of Roane County residents who
                                                                                                cally, TVA has initiated a bottom-up ap-
                                                believe they have been affected by the
“We wanted to ensure residents were                                                             proach and now conducts business unit
                                                spill, and to educate area physicians
safe first and foremost,” Ray said,                                                             workshops. This process has allowed
                                                about fly ash and the medical protocols
“then we focused on restoring the                                                               TVA to address many more risks that
                                                Vanderbilt physicians will follow.
infrastructure to the area by supporting                                                        may not have surfaced using a top-
local utilities with restoration of electric,   Besides the impactful efforts that TVA          down approach.
gas and water lines and by repairing and        has made to restore the community and
                                                                                                Risk assessment efforts, driven by
repaving two primary roads in the area.”        residents of Kingston, TVA has worked
                                                                                                15 Risk Coordinators, are now
                                                intensely to bolster its ERM program
Letters to TVA from residents affected by                                                       occurring at multiple levels throughout
                                                designed to identify potential risk areas
the spill indicate the gratitude some have                                                      the organization and these efforts span
                                                and prevent a possible operational
toward TVA for their quick response in                                                          multiple enterprise risk categories
                                                failure, such as the ash spill. In 2008, the
helping them restore their lives.                                                               such as employee fraud, pandemic,
                                                TVA OIG conducted a follow-up review
                                                                                                terrorist attack, and deteriorating
                                                of TVA’s ERM since its initial 2003
“We are two (Swan Pond area) residents                                                          IT infrastructure. Management’s
                                                review. While the OIG found that TVA
who want to let you know how much                                                               commitment to ERM has been a
                                                made significant progress in enterprise
we appreciate everything you have done                                                          key factor in driving the program’s
                                                risk identification and assessment,
during these past two weeks,” one letter                                                        success and will be critical to
                                                further recommendations included:
read. “Christmas night we welcomed Mr.                                                          extracting the program’s strategic
Ron Hall into our home. The numerous            • Continuing to drive the risk                 value going forward.
additional staff who have telephoned               management culture into and
and knocked on our front door to just              across the organization.
                                                                                                                                             t
                                                                                                                                             v
Kingston Fossil Plant                                                                                                                        a
• Construction begins in 1951.                  • Nine coal-fired units, consumes        • Burns a low-sulfur blend of coal to
• Commenced operations in 1954 and                approximately 14,000 tons of coal         limit emissions of sulfur dioxide (SO2).        19
   was the world’s largest coal-burning            per day at maximum operating           • Generates about 10 billion kilowatt-            o
   power plant at the time.                        capacity—an amount of coal that           hours a year—enough electricity to              i
                                                   would fill 140 railroad cars.             supply
                                                                                    Semiannual       700,000
                                                                                                Report        homes.the Foundation.
                                                                                                        | Rebuilding
                                                                                                                                             g
     NOTEWORTHY UNDERTAKINGS
     >T
       HE TVA OIG LAUNCHES
      PUBLIC SERVICE
      ANNOUNCEMENTS ON
      LOCAL TV STATIONS

     A series of three thirty-second public
     service announcements (PSAs) were
     created from the TVA OIG’s latest video
     release which addresses the thought,
     “If only it were easy to spot fraud.”
     The PSAs are expected to run on
     local TV stations throughout the
     Tennessee Valley.

     The four-minute video, from which the
     PSAs were created, showcases what it
     might look like if it were easy to spot
     fraud, but because it’s not, a message
     from the Inspector General highlights
     what TVA employees and ratepayers
     can do if they suspect fraud.

     Our office initiated this effort to
     encourage TVA employees, contractors,
     and the public to report possible
     instances of fraud, waste, abuse, and
     mismanagement to the office’s hotline,
     the Empowerline, which allows users
     to report anonymously if they choose.

     To view the video, visit www.oig.tva.gov,
     and click on the video link.




                                                                          HOW TO REPORT
                                                                          Suspected or alleged fraud, waste, or
                                                                          abuse can be reported to the TVA OIG in
t                                                                         person at a local office, or via the TVA
v
                                                                          OIG Empowerline. Empowerline options
a
                   TVA Inspector General Richard Moore interviews with    include: phone (1 877 866 7840) and
                TV Anchor Gene Patterson for Tennessee This Week, which
20                    aired Sunday, Aug. 2 on Knoxville’s Channel 6.      Web www.OIGempowerline.com.

o
i
     Semiannual Report | Rebuilding the Foundation.
g
> TVA OIG SENIOR SPECIAL AGENT RECOGNIZED BY CIGIE FOR WORK ON
   CASE LEADING TO THE PROSECUTION OF TWO TENNESSEE BUSINESSMEN


The TVA OIG was named as an award           proceeds of which were to be used          “The prosecution of this case was
recipient by the 2009 Council of the        solely for the purpose of purchasing ten   important in maintaining the integrity
Inspectors General on Integrity and         specific items of equipment for use in     of TVA’s Economic Development
Efficiency (CIGIE) Awards Panel for         operating Hickman Mills, Inc., a textile   program,” TVA OIG Inspector General
its work in a complex loan fraud            company in Hickman, Kentucky, which        Richard Moore said. “The Office of
that resulted in the conviction of          Smith and Wall owned and operated          the Inspector General will continue
two Tennessee businessmen, Lloyd            during that time.                          to scrutinize these types of loans to
Aaron Smith and Neal Gordon Wall,                                                      determine if TVA is being defrauded.”
for bank fraud, mail fraud, and money       The defendants caused fraudulent
laundering. The awards ceremony took        documents to be submitted to TVA
place on Tuesday, October 20, 2009,         in support of their $500,000 loan
at the Andrew Mellon Auditorium in          application. One of the documents
Washington, D.C.                            indicated that Smith and Wall owned
                                            the ten items of equipment to be
TVA OIG Senior Special Agent Craig          acquired with the loan proceeds
Yates received the award on behalf          through a purchase transaction in April
of the prosecution team. Other team         2002. Another document showed that
members included: G. Lynn Bracey,           Smith and Wall entered into a contract
Senior Special Agent, USDA-OIG; James       in July 2003 to sell the same ten pieces
R. Lesousky, AUSA Western District of       of equipment to Hickman Mills for
Kentucky; William K. Miller, Special        $500,000. The indictment charges that             Senior Special Agent Yates and
Agent, Internal Revenue Service; and        Smith and Wall, in fact, never owned the               IG Moore with Award
James H. Rafferty, Retired Special Agent,   ten items of equipment.
Internal Revenue Service.
                                            Instead of using the proceeds of the
According to the nomination, these          $500,000 loan from TVA to purchase the
individuals were honored for their          ten items of specified equipment, Smith
exceptional performance in the              and Wall deposited the monies into an
joint investigation and prosecution         account established with a Tennessee
of a complex fraud case where the           bank in the name of Dyer Fabrics, Inc.,
two Tennessee businessmen were              another business owned and operated
sentenced and ordered to pay $4.5           by the two.
million in restitution for bank fraud,
mail fraud, and money laundering. This      Smith and Wall pled guilty to bank
                                                                                           Hickman Mills TVA Investigative Team
investigation was conducted jointly         fraud, mail fraud, and nine counts of
with the Tennessee Valley Authority’s       money laundering. On February 11,
Office of Inspector General, the U.S.       2009, both men were sentenced by
Department of Agriculture’s Office          the U.S. District Court in Paducah,
of Inspector General – Investigations       Kentucky. Smith received 30 months
(USDA-OIG), the U.S. Internal Revenue       incarceration, and Wall received
Service’s Criminal Investigation            27 months incarceration. They
Division, and the U.S. Attorney’s Office    were jointly and severally ordered
                                            to pay restitution in the amount of                                                   t
for the Western District of Kentucky.
                                            $420,733.37 directly to TVA and                                                       v
Smith and Wall applied for and received     $4,104,562.51 to the Citizens Bank of                                                 a
a $500,000 loan from the TVA’s              Hickman or USDA, and assessed $1,100.
Economic Development program, the                                                                                                 21
                                                                                                                                  o
                                                                                                                                  i
                                                                                Semiannual Report | Rebuilding the Foundation.
                                                                                                                                  g
     > SOCIAL NETWORKING TURNED PROFESSIONAL AT THE TVA OIG


     Social networking mediums such as         The TVA OIG Professional Network
     Facebook, MySpace, and Twitter have       is based on the same format that
     appeared to reach a peak in popularity    Facebook uses and allows employees
     among students, adults, and even those    to post information about themselves
     beyond retirement age. The efficiency     to their own profiles that are only
     social networking provides in allowing    accessible to other TVA OIG employees.
     people to be instantly connected to       It is a secure way for employees to
     friends and family members has made       communicate with each other and learn
     the medium attractive to private          about common interests and specific
     businesses and now government             areas of expertise that they might
     agencies, such as the TVA OIG.            not otherwise have an opportunity to
                                               learn about. Work projects requiring
     In a teleworking environment where        interoffice collaboration can be done
     face-to-face contact is limited, a        even more efficiently because of this
     professional network is ideal for         information-sharing tool.
     information sharing and employee
     collaboration. Social networking
     is being used professionally by
     government agencies such as the
     Centers for Disease Control and the
     Office of Management and Budget and
     now it has been seemingly well received
     by our office.

     The network allows all TVA OIG
     employees throughout multiple states
     including Kentucky, Alabama, and
     Tennessee to learn about each other’s
     professional endeavors and to share
     knowledge on specific areas of interest
     and expertise. It also allows employees
     to blog and create group discussions or
     forums on relevant topics.

     According to www.usa.gov, “Social
     networking sites with government
     partners can help achieve a
     government’s mission. Internal
     social networking sites can establish
     connections across traditionally
     stovepiped and geographically
     dispersed organizations. Employees
     could form groups on social networking
t    sites to overcome stovepipes within
v    organizations.”
a

22
o
i
     Semiannual Report | Rebuilding the Foundation.
g
TVA INSPECTOR
GENERAL TESTIFIES
BEFORE CONGRESS
Richard Moore testified before the
House Subcommittee on Water
Resources and Environment on
June 28, 2009. The testimony was
in regard to the TVA OIG’s second
report on the Kingston Fossil Plant
ash spill: Review of the Kingston
Fossil Plant Ash Spill Root Cause
Study and Observations about
Ash Management. A copy of his
testimony can be found on our
Web site at www.oig.tva.gov.




                                                                                       t
                                                                                       v
                                                                                       a

                                                                                       23
                                                                                       o
                                                                                       i
                                      Semiannual Report | Rebuilding the Foundation.
                                                                                       g
 Rebuilding the Foundation.            Summary of Representative Inspections




Semiannual Report | Rebuilding the Foundation.
Summary of                                      to determine if operation was in
                                                accordance with program intent and
                                                                                                   certain emergency response actions
                                                                                                   following the spill.
Representative                                  operating controls were functioning.
                                                                                                 • TVA’s actions for responding quickly
Inspections                                     Results of the distributor reviews are
                                                discussed below under Distributor                   to media and public inquiry resulted in
                                                Audits. This once again shows                       releases of inaccurate and inconsistent
                                                Inspections’ ability to impact the                  information and subsequent public
                                                effectiveness and efficiency of                     criticism which caused reputational
                                                programs across TVA.                                harm to TVA.

                          Gregory C. Jaynes                                                      • TVA has responded effectively to
                          Deputy Assistant
                                                >K
                                                  ingston Fossil                                   victims in the affected area; however,
                          Inspector General,     Plant Ash Slide                                    failure to communicate the claims
                          Inspections
                                                 Interim Report                                     policy and decisions in a timely manner
                                                The spill of wet coal ash at the Kingston           increased settlement expectations for
During this semiannual period, we               Fossil Plant is the largest such spill to           some.
completed 19 inspections covering               occur in our country. More than one bil-
a smorgasbord of operational areas,             lion gallons (i.e., 5.4 million cubic yards)     TVA management agreed with our find-
in addition to the two distributor              of coal ash poured onto adjacent land            ings and is taking actions to address the
reviews completed under Inspections.            and into the Emory River. Coal ash is            recommendations. Specifically, manage-
Specifically, we completed: (1) two             a byproduct produced when fossil fuel            ment plans to: (1) fully implement
inspections which addressed aspects             plants burn coal to generate electricity.        NIMS, ensure required NIMS training
of the Kingston ash spill, including the        Our report focused on: (1) TVA’s initial         is completed, and evaluate the imple-
root cause, TVA’ management culture,            emergency response, including imple-             mentation of best practices as identified
TVA’s emergency response, TVA’s                 mentation and utilization of the National        by the Roane County Emergency
media response, and reparations to              Incident Management System (NIMS);               Management Director; (2) document
victims; (2) an assessment of TVA’s             (2) TVA’s responses to the media; and            the protocol and verification process
financial performance and challenges;           (3) reparations to the victims and resto-        for the release of media statements and
(3) a review which resulted in the              ration of the affected Roane County com-         maintain verification that the appropri-
termination of the Maintain and Gain            munity. In summary, we found:                    ate processes were followed; and
Lakeshore Management Program;                                                                    (3) continue to work with the communi-
(4) four inspections of TVA coal                • TVA had not implemented NIMS in               ties and local residents to improve the
suppliers to assess contract compliance            accordance with Homeland Security             communications related to TVA’s
with weighing and sampling provisions;             Presidential Directive 5 which ham-           efforts with property acquisition
and (5) eleven campground inspections              pered communications and delayed              and claims process.




                                                                                                                                               t
                                                                                                                                               v
                                                                                                                                               a

                                                                                                                                               25
  Kingston Fossil Plant Area Pre-Dike Failure     Kingston Fossil Plant Area Post-Dike Failure       Kingston Fossil Plant as of August 2009
                                                                                                                                               o
                                                                                                                                               i
                                                                                           Semiannual Report | Rebuilding the Foundation.
                                                                                                                                               g
     >R
       eview of the                                • AECOM overemphasized the “slimes”          The OIG recommended TVA’s CEO, in
      Kingston Fossil                                  layer as a trigger for the Kingston        consultation with the TVA Board:
      Plant Ash Spill Root                             Fossil Plant spill. Marshall Miller
                                                                                                  • Commission a dedicated cadre of
      Cause Study and                                  concluded that factors other than the
                                                                                                     professionals skilled in change
      Observations about                               “slimes” layer may have been of equal
                                                                                                     management focused solely on driving
      Ash Management                                   or greater significance.
                                                                                                     compliance throughout TVA and
                                                    • Despite internal knowledge of risks           measuring positive changes in the
     On December 22, 2008, a major dike
                                                       associated with ash ponds, TVA’s              culture that affect ash management
     failure occurred on the north slopes of
                                                       formal ERM program, which began               and other TVA programs.
     the ash pond at the TVA Kingston Fossil
                                                       in 1999, had not identified ash
     Plant. This failure resulted in the re-                                                      • Assess the culture of the Fossil
                                                       management as a risk. While over the
     lease of approximately 5.4 million cubic                                                        Power Group to determine what
                                                       years there was internal discussion
     yards (more than 1 billion gallons) of                                                          changes need to be made, if any,
                                                       about placing the ash ponds under
     wet coal ash spilling onto adjacent land                                                        to ensure the support for sound
                                                       TVA’s Dam Safety Program, ultimately,
     and into the Emory River. TVA’s CEO                                                             policies and procedures related
                                                       TVA did not place the ash ponds under
     directed the TVA Office of the General                                                          to ash management.
                                                       its Dam Safety Program. Treating
     Counsel to contract with a firm to do
                                                       the ash ponds like dams would have         • Assess the management practices of
     a root cause analysis of the spill, and
                                                       required more rigorous inspections            TVA for ash management to determine
     AECOM was commissioned with the
                                                       and engineering.                              whether those practices contributed
     task. The objectives of the OIG’s review
     were to: (1) provide an independent            • Attitudes and conditions at TVA’s fossil      to the failure of the dike at the
     peer review of AECOM’s root cause                 fuel plants that emanate from a legacy        Kingston Fossil Plant.
     analysis and (2) review TVA’s ash man-            culture impacted the way TVA handled
     agement for weaknesses. To assist with                                                       • Complete the assessments of TVA ash
                                                       coal ash. Ash was relegated to the            storage facilities and determine which
     technical aspects of this review, the OIG         status of garbage at a landfill rather
     hired Marshall Miller to independently                                                          ones are at risk of failure. The deter-
                                                       than treating it as a potential hazard        mination should be, as suggested by
     peer review TVA’s root cause analysis             to the public and environment.
     and provide other observations about                                                            Marshall Miller, based on whether any
     ash management practices at TVA. In            In addition, this OIG report was                 of the four conditions contributing to
     summary, we found:                             presented to the TVA Board on July 14,           the failure at the Kingston Fossil Plant
                                                    2009. After the OIG briefed the TVA              exist sufficiently to pose a significant
     • TVA management handled the root             Board on its findings, a specially called        risk of failure. The determination
        cause analysis in a manner that avoid-      TVA Board meeting was held on July 21,           should not be limited to just looking
        ed transparency and accountability          2009. A report prepared by McKenna               for the existence of the combination of
        in favor of preserving a litigation         Long and Aldridge and commissioned               all four contributing conditions found
        strategy. TVA elected not to publicly       by the Audit, Governance, and Ethics             at the Kingston Fossil Plant.
        disclose management practices that          Committee of the TVA Board in
        may have contributed to the Kingston                                                      • Develop policies and procedures for
                                                    February of 2009 was released. TVA               the storing, handling, and maintaining
        Fossil Plant spill.                         management acknowledged at the                   of ash and ash disposal facilities.
                                                    July 21, 2009, meeting many of the
     • TVA could have possibly prevented
                                                    management failures that we identify          • Continue the efforts to drive the
        the Kingston Fossil Plant spill if it had
                                                    in this report. These admissions                 ERM program further down into the
        taken recommended corrective ac-
                                                    reflect the type of transparency                 organization to increase the future
        tions. TVA was aware of “red flags”
                                                    and accountability for TVA that the              likelihood that known risks will be
        that were raised over a long period
                                                    OIG has pressed for some time. We                identified and addressed.
        of time signaling the need for safety
t                                                   applaud the TVA Board’s leadership
        modifications to TVA ash ponds.                                                           TVA’s CEO provided comments on a
v                                                   in this matter and TVA management’s
                                                    acknowledgement of TVA’s role in the          draft to this report. The CEO generally
a
                                                    Kingston Fossil Plant spill.                  agreed with our recommendations
26                                                                                                and, in addition to identifying actions

o
i
     Semiannual Report | Rebuilding the Foundation.
g
already taken, stated that actions in-      implementing (a) more detailed and
process or planned include:                 rigorous policies and procedures for
(1) implementing a cultural—                storing, handling, and maintaining ash
focusing initiative across the agency,      and managing ash disposal facilities,
incorporating lessons learned from the      and (b) a comprehensive program
Kingston Fossil Plant spill; (2) using      for future coal combustion product
the detailed, technical explanation of      remediation and conversion; and
what and how the Kingston Fossil Plant      (4) implementing ERM improvements
dike failure occurred to ensure that        to better achieve the goals of the
it never happens again and to safely        program.
close the failed cell; (3) developing and
                                                                                                  Kingston Fossil Plant Cleanup




> Review of TVA’s Financial Performance

This review was the second in a series      • TVA’s ability to set its own rates and       (O&M) costs. TVA is seeking to
of reviews that will benchmark TVA’s           the implementation of a fuel cost-           reduce nonfuel O&M costs but has
performance in key areas and answer            adjustment clause provides flexibility       made limited progress to date. TVA
the question, “How is TVA doing in             to help maintain adequate revenues           has also focused on reducing interest
regard to financial performance?”              to cover costs. Additionally, TVA            costs as a percentage of revenues
In conducting this review, we:                 operates in a service area that is           and has made progress in doing so in
(1) assessed key performance measures          largely free from competition and has        recent years.
and their alignment with the key               a large, diverse customer base.
strategic objectives; (2) evaluated TVA’s                                                 Recent events have negatively affected
results relative to targets and available   • TVA has made certain investment            TVA financially including: (1) a wet coal
benchmark information; and                     decisions in the past that did not pay     fly ash spill at the Kingston Fossil Plant;
(3) identified key management                  off. TVA is seeking to improve its         (2) a downturn in the economy causing
challenges that could affect how               capital investment decisions and the       declining power sales; (3) a court
successful TVA is in achieving its             financial performance of its capital       ruling on a lawsuit brought by the state
financial strategic objectives.                assets. However, TVA’s ability to make     of North Carolina; and (4) significant
                                               these large investments pertaining to:     losses on accounts established to
In our judgment, TVA’s overall financial       (1) new generation and transmission        fund pensions and asset retirements.
performance for this assessment period         assets; (2) environmental require-         Our report includes discussions of
was adequate; however, the agency              ments; and (3) existing assets that        the necessity to manage commodity
faces several significant financial            are aging and need regular upgrades        price, investment price, interest rate,
challenges, some of which have recently        to keep running, will be a challenge,      credit, and capital requirement risks.
emerged. This conclusion is based on           given TVA’s financing structure and        In addition, while TVA’s bond rating
our analysis of TVA’s financial health in      legislative debt ceiling.                  is based primarily more on its federal
three areas: (1) maintaining adequate                                                     ties than its financial position, TVA
revenues; (2) making sound capital          • TVA is attempting to reduce certain        management has identified maintaining
investments; and (3) containing costs.         costs to improve its financial position.   the AAA bond rating as a risk factor in its
In summary:                                    TVA fairs poorly when compared to          2008 filing with the U.S. Securities and
                                               other electric utilities with respect to   Exchange Commission on Form 10-K.
                                               nonfuel operation and maintenance

                                                                                                                                        t
                                                                                                                                        v
                                                                                                                                        a

                                                                                                                                        27
                                                                                                                                        o
                                                                                                                                        i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                        g
     >R
       eview of Maintain
      and Gain Lakeshore
      Management
      Program

     This review was conducted to
     determine whether: (1) TVA gave
     anyone preferential treatment in the
     review and approval of Maintain and
     Gain transactions, and (2) the policies
     and procedures related to the design
     and execution of the Maintain and Gain
     process were adequate. The Maintain          applications were rejected damages           - A definition of inherent conflicts of
     and Gain program was designed to             the integrity of the Maintain and Gain          interest broad enough to capture
     allow consideration of proposals             program.                                        the majority of cases that involve
     to obtain lake access rights at the                                                          conflicted parties soliciting something
     landowner’s property by swapping            • The Maintain and Gain program                 of value from TVA.
     access rights already available at other       may undermine the TVA Board of
     properties the landowner may possess.          Director’s 2006 Land Policy and its        - A training program for TVA employees
     The policy, as written, required that          apparent goal of restricting residential      to enable them to recognize and report
     transactions would result in no net            development on TVA shorelines.                conflicts.
     loss, or preferably, a net gain of public
                                                 We recommended TVA management,                - A process to refer these cases to the
     shoreline. We reviewed all Maintain
                                                 in consultation with the TVA Board,              Ethics and Compliance Officer, the
     and Gain transactions that had been
                                                 consider:                                        Designated Agency Ethics Officer and
     approved since inception of the
                                                                                                  to the OIG to track, review, and report
     program up to the date of our report        • Eliminating the Maintain and Gain             on whether or not any preferential
     and found:                                     program and only consider changes             treatment occurred.
                                                    to water access rights during the
     • Certain actions by TVA employees and
                                                    periodic update of the Shoreline           - A notice provision to any conflicted
        by others created the appearance of
                                                    Management Policy.                            party applying for a TVA benefit
        preferential treatment and thereby
                                                                                                  advising them that their request or
        increased TVA’s risk of reputational     • Alternatively, if the Maintain and Gain       application will be the subject of a
        harm.                                       program is retained, TVA should:              formal review and public report.
                                                    (a) evaluate the extent it may conflict
     • TVA did not have a protocol in the
                                                    with the Land Policy regarding             The CEO generally agreed with our
        Maintain and Gain process to ensure a
                                                    residential development; (b)               findings and recommendations. Based
        transparent and independent review
                                                    strengthen procedural guidelines           on our review, the TVA Board and
        of applicants having known conflicts
                                                    to reduce the inconsistency in             management eliminated the Maintain
        of interest.
                                                    how matters are resolved; and              and Gain program and a conflict of
     • The Maintain and Gain program has           (c) implement procedures to                interest protocol was developed and
        been administered in an arbitrary           ensure adequate documentation is           implemented that incorporates the
        manner and requires substantial             maintained of rejected and withdrawn       elements recommended by the OIG.
        improvement if it is to be retained         applications.
        by TVA. We noted that exceptions
                                                 • Establishing a clearly defined
        were granted in seven of the ten key
t                                                   protocol which creates a procedure
        steps required in a Maintain and Gain
                                                    for identifying inherent conflicts of
v       transaction.
                                                    interest by those applying for any TVA
a                                                   benefit. We also recommended that
     • TVA’s failure to retain records of who
        filed applications and why those            the protocol include the following
28                                                  elements:
o
i
     Semiannual Report | Rebuilding the Foundation.
g
>T
  VA Coal Supplier                            for ten randomly selected shipments
 Contracts                                     agreed with the information provided
We conducted four inspections to deter-        to TVA regarding tons shipped. Each
mine whether selected coal suppliers           supplier was also found to be in gen-
were in compliance with weighing and           eral compliance with the weighing and
sampling requirements of each respec-          sampling requirements in the contract.
tive contract. We performed tests to           However, we did identify a few issues
verify that shipment weight documenta-         requiring TVA management action re-
tion maintained at each mine supported         lated to bias testing. TVA management
the amounts used to support invoices           generally agreed with our findings and
to TVA for tonnage shipped. In sum-            recommendations and plans to take
mary, our reviews found documentation          corrective action.
maintained at each respective mine
                                                                                                             Coal Barge




> Review of TVA Managed Campgrounds
At the request of the Senior Vice              campground guidelines were generally         • The resident manager contract for one
President of Environment and                   being complied with. However, we did            campground differed somewhat with
Research, we initiated reviews of the          note:                                           regard to duties and responsibilities
11 TVA-managed campgrounds to                                                                  when compared to the other three
determine: (1) if the campgrounds              • Some minor overall program guideline         resident manager contracts.
were being operated in accordance                 inconsistencies.
with the program’s intent and (2) if the                                                    • One resident manager contract had
                                               • For the four campgrounds with                not been updated to reflect revised
operating controls were functioning
                                                  a resident manager, the resident             responsibilities.
as intended. We found that the
                                                  manager contracts did not include
campgrounds were operating within the
                                                  some specific responsibilities            TVA management generally agreed with
program’s intent, which is to provide
                                                  identified in the TVA Resident            our findings and recommendations and
public areas for recreation. In addition,
                                                  Manager Manual.                           has taken or plans to take corrective
we found the operating controls
                                                                                            actions.
were functioning as intended and




                                                                                                                                       t
                                                                                                                                       v
                                                                                                                                       a

                     Foster Falls Campground                                          Douglas Dam Tailwater Campground                 29
                                                                                                                                       o
                                                                                                                                       i
                                                                                      Semiannual Report | Rebuilding the Foundation.
                                                                                                                                       g
 Rebuilding the Foundation.            Summary of Representative Audits




Semiannual Report | Rebuilding the Foundation.
Summary of                                                                                   had adequate information to estimate,
                                                                                             was not material; however, there were
Representative                                                                               some instances where we did not have

Audits                                                            Jill M. Matthews
                                                                                             enough information to estimate the
                                                                                             impact. Generally, the distributors are
Our four audit departments issued                                                            taking action to correct these issues.
66 reports to TVA management                                      Deputy Assistant
                                                                  Inspector General,
during this semiannual period. The                                Audits & Support
newly established distributor audit                                                          > Contract
department completed four reviews                                                               Compliance
of TVA power distributors. The IT          Distributor Audits                                We found distributors were not comply-
Audits group assessed TVA’s general        During this fiscal year, the OIG launched         ing with certain contract requirements.
computing controls, security monitoring    a new contract compliance audit pro-              Specifically, we noted: (1) contracts
program and backup and recovery            gram related to the revenue contracts             not in place with all customers whose
controls. This group also performed a      between TVA and its power distribu-               demand was greater than 50 kW;
pre-implementation review of controls      tors. These reviews began in the In-              (2) accounting practices not in compli-
for a new asset management system.         spections group; however, in January              ance with Federal Energy Regulatory
This work was in addition to tests of      2009, the OIG established the Distribu-           Commission requirements; (3) co-
general computer and application           tor Audits group to focus solely on these         mingling of electric department funds
controls completed in support of TVA’s     reviews and related issues. The objec-            with those of other city departments;
efforts to comply with SOX. To further     tive of these reviews is to assess compli-        (4) adjustments to customer bills not
assist TVA in SOX compliance, Financial    ance with the key power contract provi-           made as required in the contract; and
and Operational Audits completed           sions including: (1) the proper report-           (5) proper documentation not kept to
tests of financial reporting controls      ing of power sales by customer class to           verify compliance with the small manu-
for 27 business processes. Financial       facilitate proper revenue recognition             facturing company credit. The distribu-
and Operational Audits also applied        and billing by TVA; (2) nondiscrimina-            tors generally agreed to take actions to
agreed-upon procedures this period         tion in providing electricity to members          address these issues with the exception
related to TVA’s 2008 green power          of the same rate class; and (3) the use of        of the co-mingling of funds issue. TVA
pricing accreditation. Contract Audits     power revenues.                                   also agreed no action was necessary. In
succeeded in identifying $50.5 million                                                       addition, TVA is reevaluating the thresh-
of potential savings opportunities,        During this semiannual period, the OIG            old for requiring distributor’s to obtain
primarily related to overstated cost       completed four reviews of TVA distribu-           contracts with their customers.
recovery rates and misclassified           tors. Two reports were issued under
                                           Inspections and two were issued by the
labor categories, for TVA to negotiate.                                                      > Use of Electric
                                           newly formed Distributor Audits group.
Additionally, Contract Audits completed                                                         Revenues
seven compliance audits of contracts       Below are issues noted in one or more
                                                                                             We noted the distributors had more
with expenditures totaling $392 million    of these reviews.
                                                                                             than enough cash on hand to fund
and identified potential overbillings of                                                     planned capital expenditures and pro-
$6.7 million. Following are additional     >C
                                             lassification and                              vide a cash reserve. While TVA has
details for the engagements completed       Metering                                         established guidelines to determine if a
this semiannual period by the four         We noted some instances where:                    distributor has adequate cash reserves
departments.                               (1) customers were not classified prop-           (cash ratio of 5 to 8 percent), TVA has
                                           erly; (2) similar customers were not              not established guidelines to determine
                                           classified the same; (3) meters were              if a distributor’s cash reserves are ex-
                                           not accurately measuring consump-                 cessive. Two of the four distributors
                                           tion; (4) customers were not metered              reviewed had cash ratios exceeding the      t
                                           for demand; and (5) customers were                minimum guidelines of 5 to 8 percent.       v
                                           not metered, which resulted in esti-              TVA has agreed to define criteria for
                                                                                                                                         a
                                           mates being used for billing purposes.            determining when a distributor’s cash
                                           The impact of these issues, where we              reserves are excessive. We did not
                                                                                                                                         31
                                                                                                                                         o
                                                                                                                                         i
                                                                                       Semiannual Report | Rebuilding the Foundation.
                                                                                                                                         g
     identify any issues relating to the use of      We also noted TVA does not have a           regarding application access controls,
     revenues for approved purposes in any           process to evaluate audit findings to       system security, system testing, data
     of the four reviews.                            determine if similar issues could exist     conversion, and general controls
                                                     in other TVA systems. As a result, the      included in our audit scope. TVA
                                                     findings identified in this report are      management agreed with our findings
     >O
       pportunities
      for TVA Oversight                              similar to findings in previous OIG         and has taken or is in the process of
      Improvements                                   reports for control system reviews.         taking corrective action to remediate
                                                     TVA management agreed with our              the identified issues.
     We found TVA: (1) did not include
                                                     findings and has taken or is in the
     cash used to prepay TVA power in the
                                                     process of taking corrective action to
     calculation of the cash ratio for rate                                                      > Backup and Recovery
                                                     remediate issues noted in these audits.        Controls Determined
     review purposes; (2) had not provided
     definitive guidance for distributors on                                                        Effective
     what constituted prudent expenditures;          > Improvements                             We assessed the controls in place for
     (3) had not adequately defined how                 Needed for Security                      the backup and recovery of control
     often meters should be tested by the               Monitoring Program                       system configurations for the River
     distributors; (4) had not performed a           We evaluated the effectiveness of           Operations business unit. We found
     joint cost study in more than 20 years;         agency-wide controls and processes in       River Operations has effective controls
     (5) had not defined at what point a             place to monitor, identify, classify, and   and processes in place related to the
     demand meter is required for certain            respond to cyber security events. We        backup and recovery of control system
     commercial rate class customers; and            found TVA: (1) lacked a comprehensive       configurations.
     (6) had not provided guidance on what           strategy; (2) was not adequately
     types of appurtenances were allowed             monitoring its IT assets for cyber
                                                                                                 > FY 2009 IT SOX
     or at what point in time the use must           security events; (3) did not always            Testing Identified
     be predominately residential. TVA               follow its incident response policies and      Opportunities for
     agreed to take action on all identified         procedures; and (4) was not effectively        Improvement
     issues except for the issue related to          using existing resources capable of
                                                                                                 During this semiannual period, we
     appurtenances.                                  increasing IT security monitoring levels
                                                                                                 completed (1) control testing for five
                                                     and coverage.
                                                                                                 IT general control domains and eleven
                                                     During this audit, TVA began work-          applications, and (2) year-end, remedia-
                                                     ing toward an agency-level IT security      tion and nonoccurrence testing for four
                                                     monitoring framework and initiated          IT general controls and four application
                                                     several projects to improve monitoring,     controls. Overall, we noted opportuni-
                                                     identification, and classification of se-   ties to improve the operating effective-
                             Phyllis R. Bryan        curity events. TVA management agreed        ness of controls and SOX documenta-
                                                     with our findings and has taken or is in    tion. TVA management agreed with
                             Director, IT Audits &
                             Support                 the process of taking corrective action     our findings and has taken or is in the
                                                     to remediate the identified issues.         process of taking corrective action to
                                                                                                 remediate issues noted in these audits.

     IT Audits                                       >P
                                                       re-implementation
                                                      Review Concluded
     > Improvements                                  Controls Were
        Needed in General                             Adequate
        Computing Controls                           We performed a pre-implementation
     We reviewed general computer controls           review of the initial phase of the
t    related to a TVA control system. We             enterprise asset management system.
v    found security weaknesses existed in            We determined plans and processes in
a    each of the areas we reviewed—logical           place were adequate after actions were
     security, physical and environmental            completed to address our concerns
32   security, and general security controls.

o
i
     Semiannual Report | Rebuilding the Foundation.
g
                                                 > SO
                                                    X Testing                             > TVA’s Compliance
                                                   Identifies Needed                          with the Green
                                                   Improvements                               Pricing Accreditation
                                                 We completed testing of 106 control          Program
                       Lisa H. Hammer
                                                 activities within 27 TVA key business     TVA’s Green Power Switch Program
                                                 processes designated by TVA’s Financial   produces or acquires electric power
                       Director, Fianacial and
                       Operational Audits
                                                 Compliance and Regulatory Controls        generated from renewable resources
                                                 Group as requiring testing for SOX        such as solar, wind, and methane gas,
                                                 compliance. We found that of the          and adds such sources to TVA’s power
                                                 106 controls tested, 83 were operating    mix. Both solar and wind power are
Financial and                                    effectively, ten were not operating       produced in sufficient quantities to
Operational Audits                               as intended, four lacked sufficient       qualify for accreditation by the Center
During this semiannual period, we                documentation to demonstrate the          for Resource Solutions (CRS). We
completed testing of financial report-           control operated effectively, five were   completed agreed-upon procedures
ing controls for twenty-seven business           not designed effectively, and four        to assist the CRS in determining TVA’s
processes to assist with TVA’s initiative        controls operated differently than        compliance with the annual reporting
to comply with SOX. In addition, we              what was described in the process         requirements of CRS’ Green Pricing
performed agreed-upon procedures                 documentation. In addition, OIG           Accreditation Program, Green-e Energy
related to TVA’s 2008 green power pric-          identified 39 instances where process     for utility pricing programs, for the
ing accreditation. Highlights of these           documentation could be improved.          year ended December 31, 2008. These
projects follow.                                                                           procedures included steps to verify
                                                                                           that the renewable energy supply
                                                                                           was sufficient to meet sales, products
                                                                                           met the Green-e criteria and stated
                                                                                           product content, and marketing and
                                                                                           product information was accurate
                                                                                           and communicated to customers. The
                                                                                           results of the procedures verified that
                                                                                           TVA’s Green Power sales were based
                                                                                           on electricity generated or acquired
                                                                                           from eligible renewable sources and
                                                                                           otherwise met the above aspects.
                                                                                           CRS was provided with the results
                                                                                           of our work.




                                                                                                                                     t
                                                                                                                                     v
                                                                                                                                     a

                                                                                                                                     33
                                                                                                                                     o
                                                                                                                                     i
                                                                                    Semiannual Report | Rebuilding the Foundation.
                                                                                                                                     g
                                                  	   - The contract provided for all         • We audited $9.98 million in costs
                                                         work, with the exception of a            billed to TVA by a contractor for right-
                                                         baseline project at Allen Fossil         of-way clearing and land restoration
                                                         Plant, to be performed on a cost         services for transmission line projects.
                                                         reimbursable basis. However,             In summary, we found the contractor
                            David P. Wheeler
                                                         we found the contractor had              overbilled TVA $34,678, including
                            Director, Contract           overbilled TVA at least $2,025,739       (1) $28,925 in unallowable
                            Audits
                                                         on four additional fossil plant          rental costs, and (2) $5,753 due
                                                         projects that had been performed         to miscellaneous invoice errors.
                                                         because it had billed fixed              Additionally, we could not determine
     Contract Audits                                     prices instead of using the cost         if price changes had been accurately
                                                         reimbursable terms required              accounted for under the contract
     >P
       reaward Contract                                 by the contract. The actual              because the contract’s provisions
      Reviews                                            overbilling may be higher because        related to price changes were unclear.
     To support TVA management in negoti-                our calculation of the overbilling       TVA management subsequently
     ating procurement actions, we complet-              used a maximum fee rate the              decided to recover $6,380 of the
     ed ten preaward audits of cost propos-              contractor would have been               overbilled costs and revise the
     als submitted by companies proposing                eligible to receive.                     contract price change provisions.
     to provide: (1) major equipment and
     services for TVA’s power plants;             	   - The contractor overbilled
     (2) maintenance, modification, and con-            $207,041 for field technician
     struction services; and (3) other techni-          services because incorrect billing
     cal and security services. Our audits              rates had been used.
     identified $50.5 million of potential sav-
     ings opportunities for TVA to negotiate.     Although the contractor agreed it had
     The savings opportunities were primar-       overbilled TVA, it disagreed with the
     ily related to overstated cost recovery      amount that had been overbilled. TVA
     rates and misclassified labor categories.    management plans to recover the                          TVA transmission right-of-way

                                                  overbilling and is working with the
                                                  contractor to determine the amount to
     >C
       ontract                                                                                • We audited the cost billed to TVA by a
                                                  be repaid to TVA.
      Compliance Reviews                                                                          contractor for performing preheat and
     During this semiannual period, we also       • We audited $57.4 million in payments         post-weld heat treatment services and
     completed seven compliance audits of            TVA had made to the contractor for           found the contractor (1) had billed
     contracts with expenditures totaling            providing turbine generator outage           certain tasks at fixed prices instead
     $392 million and identified potential           services at TVA nuclear plants and           of using the time and material billing
     overbillings of $6.7 million. In addition,      found the contractor had overbilled or       rates provided for by the contract, and
     we provided (1) assistance on various           not provided services to TVA totaling        (2) overbilled or could not provide
     contractor-related investigations, and          an estimated $281,023, including:            support for $1,350 that had been
     (2) advice to management regarding              (1) $171,150 for labor and per diem          billed as time and material.
     various planned contracts. Highlights           costs that were either unsupported or
                                                                                               Although the contractor was
     of our completed compliance audits              unallowable; (2) $6,729 for overbilled
                                                                                               subsequently able to document that
     follow.                                         fixed price labor; and (3) $103,144 for
                                                                                               the fixed prices billed to TVA did
                                                     engineering services that had not been
     • We audited $23.2 million of costs                                                      not overstate its actual costs, we
                                                     provided as required by the contract.
        billed to TVA by a contractor for the                                                  recommended TVA management
                                                     TVA management is reviewing the
        design, engineering, and delivery                                                      ensure: (1) the contract explicitly
t                                                    audit findings in detail to determine
        of air preheater equipment for TVA                                                     states how procurement agents will
v                                                    what actions to take.
        fossil plants. Our audit found TVA had                                                 determine whether to use time and
a                                                                                              materials pricing or fixed prices for
        been overbilled at least $2,232,780 as
        follows:                                                                               task assignments, and (2) procurement
34
o
i
     Semiannual Report | Rebuilding the Foundation.
g
agents retain documentation of how          (3) recover all unspent funds and
TVA assessed the reasonableness of          institute procedures for ensuring
the price for any work performed            the timely collections of all future
at the fixed price. Additionally, we        overpayments. TVA management is
recommended TVA recover the $1,350          reviewing our recommendations to
of overbilled/unsupported cost. TVA         determine what actions to take.
management is planning to recover the
$1,350 overbilled and is reviewing our      • We audited the costs billed to
recommendations regarding the use of           TVA by a contractor for providing
fixed-price tasks.                             (1) modification and supplemental
                                               maintenance services at TVA nuclear
• We audited $3.5 million in costs            plants (operating unit work), and
   billed to TVA by a contractor for work      (2) construction services for the
   related to the restart of BFN Unit 1.       restart of BFN U1. The scope of our
   In summary, we found TVA had been           review included $272.2 million of
   overbilled $1,075,020 including:            noncraft costs billed by the contractor
   (1) $174,912 of unsupported and             through December 31, 2007, including
   ineligible labor and per diem costs;        (1) $89.6 million for modification and
   (2) $621,428 of unsupported and             supplemental maintenance services,
   ineligible equipment costs;                 and (2) $182.6 million for the BFN U1
   (3) $199,180 of unsupported                 services.
   material costs; and (4) $79,500 of
   overstated task costs. Although the      In summary, we found TVA had
   contractor only agreed it could not      overpaid the contractor (1) from
   provide support for $224,836 of the      $876,519 to $1,579,575 for BFN U1
   items questioned by the audit, TVA       performance fees due to an overstated
   management is planning to recover        fee base and inflated fee rates;
   the total overbilled amount identified   (2) $268,538 due to ineligible and
   by the audit.                            unsupported billings for labor costs;
                                            (3) $54,633 due to overbillings for
• We audited $25 million of costs          temporary living and relocation costs;
   billed to TVA by a contractor for        and (4) $6,650 due to miscellaneous
   providing research and development       overbilled costs. TVA management is
   activities and found: (1) TVA made       reviewing our findings to determine
   invoice payments in advance of           what amounts to recover from the
   the work being performed, thus           contractor.
   losing an estimated $1,125,000 in
   foregone interest over the period;
   (2) project status reports submitted
   by the contractor were incomplete
   and inaccurate; and (3) TVA was
   delinquent in recovering $84,371 in
   overfunded project amounts.

We recommended TVA management
(1) discontinue the use of advanced
payments unless the contractor                                                                                                      t
is required to pay interest on the                                                                                                  v
advanced amounts; (2) require the                                                                                                   a
contractor to provide a final status
report for all projects worked; and                                                                                                 35
                                                                                                                                    o
                                                                                                                                    i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                    g
 Rebuilding the Foundation.            Summary of Representative Investigations




Semiannual Report | Rebuilding the Foundation.
Summary of                                                                               > Indictment of
                                                                                            Former TVA Nuclear
Representative                                                                              Assurance Program
Investigations                                                   Paul B. Houston
                                                                                            Manager, WBN
                                                                                         A former Program Manager at the
During the semiannual period, we                                 Special Agent
                                                                                         Watts Bar Nuclear Plant was indicted
completed 223 investigations of                                  in Charge,              in Circuit Court in Tennessee on
                                                                 Investigations
criminal and administrative matters.                                                     one count of Forgery and one count
These investigations covered a wide                                                      Passing Forged Instruments. Our
                                                                                         investigation determined that during a
range of topics including environmental   ACTIONS IN                                     move of personal household belongings
crimes, falsification of invoices,        CRIMINAL                                       required by the manager’s TVA
computer security issues, and contract    INVESTIGATIONS                                 employment, the manager submitted
fraud to name a few. Specifically, the
criminal investigations resulted in
                                          – CONVICTIONS                                  a forged and falsified invoice to a
                                                                                         TVA contractor for property damage.
three indictments with one involving      >H
                                            eraeus Metal
                                                                                         Specifically, the manager submitted
environmental crimes, one involving        Processing, Inc.
theft of government property, and                                                        a $600 invoice claiming that a
                                          Heraeus Corporation, a company
another involving forged and falsified                                                   construction company had repaired
                                          located in Wartburg, Tennessee,
invoices by a TVA manager. In addition,                                                  the damage. A management review
                                          reclaims silver and other precious
three convictions were obtained during                                                   of the invoice determined some of the
                                          metals through the use of furnaces
this period. Two of the convictions                                                      personal information on the invoice
                                          in a high temperature reclamation
related to environmental crimes and                                                      belonged to another TVA employee.
                                          process. The resultant airborne
one involved theft of government                                                         The other employee had no knowledge
                                          emissions are filtered through a process
property by a TVA employee. Our                                                          of the invoice nor did he consent to the
                                          which uses wet scrubbers. In our
administrative investigations resulted                                                   use of his name. During an interview
                                          last Semiannual Report we recounted
in savings to TVA, numerous process                                                      with the OIG, the manager admitted
                                          that Heraeus Corporation pled guilty
improvements and corrective actions                                                      falsifying and forging the invoice in
                                          on January 21, 2009, to a one-count
taken by TVA management including                                                        an attempt to collect $600. The OIG
                                          Information, charging the company
suspension and termination. In                                                           issued a report to TVA Management
                                          with making false statements in and
addition, we continued our data                                                          in May 2009. After receiving notice of
                                          omitting information from a document
mining efforts to identify potential                                                     proposed termination, the manager
                                          required to be maintained pursuant
areas for investigation. One Workers’                                                    resigned his TVA employment.
                                          to the Clean Air Act. The Corporation
Compensation investigation identified     was fined $350,000 and sentenced
through data mining resulted in a         to 18 months of probation. On April
savings to TVA of almost $500,000.        15, 2009, Brent Anderson, the plant
These investigations demonstrated that    manager for Heraeus Metal Processing,
the OIG continues to have a positive      Inc., pled guilty to a one-count criminal
impact on TVA and the Valley.             Information, charging him with making
                                          false statements in and omitting
                                          information from a document required
                                          to be maintained pursuant to the Clean
                                          Air Act. Anderson was sentenced to
                                          one year probation and 50 hours of
                                          community service. This case was
                                          initiated by the Environmental Crimes
                                                                                                                                    t
                                          Joint Task Force, Eastern District of
                                                                                           Watts Bar Nuclear Plant                  v
                                          Tennessee, based on allegations that
                                          operating logs had been falsified.                                                        a

                                                                                                                                    37
                                                                                                                                    o
                                                                                                                                    i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                    g
                                               >W
                                                 orkers’                                  > Sinking of the Joe
                                                Compensation                                  Swank Tugboat
                                                Benefits Terminated:                          Investigated
                                                Saves TVA $472,007                         An Empowerline caller reported on
                           Nancy J. Holloway   We completed an investigation of            the sinking of the Joe Swank tugboat
                                               a former TVA employee who was               in TVA’s Muscle Shoals harbor. The
                           Special Agent
                           in Charge,          receiving workers’ compensation             caller said a TVA supervisor was made
                           Investigations
                                               benefits. The former painter suffered       aware that the tug was listing; several
                                               a back injury in 1984 and had been          hours later, the supervisor instructed
                                               receiving partial compensation              laborers to pump the vessel out with
     OTHER                                     payments since that time. At the time       an electric pump that was allowed to
     INVESTIGATIONS                            of the injury, he was making $501.60        run overnight. By the following day,
                                               a week. A painter currently working         the vessel had sunk, allegedly dumping
     > Data Mining                             for TVA makes $39,875 annually              2,500 gallons of diesel fuel. The caller
     The TVA OIG continuously monitors         ($766.83 weekly). Our investigation         claimed that the environmental event
     data related to workers’ compensation     determined that the former painter          should have been prevented. Our
     recipients and payments since TVA         currently earns about $79,000 annually      investigation determined, however,
     spends more than $68 million annually     as a financial officer at a regional        that only 25 gallons of diesel fuel
     in this area. Data reviews focus on       health corporation and has been in that     were discharged, and that the partial
     identifying enrollees who are             position since 2005. Although he had        sinking was the result of a number of
     (1) receiving wages and salaries from     properly reported his earnings to the       malfunctions in pumps despite the
     other sources, indicating their ability   Department of Labor, he continued to        best efforts of TVA personnel. The
     to work; (2) currently incarcerated and   receive workers’ compensation benefits      Alabama Department of Environmental
     receiving payments; or (3) over the age   from TVA of about $21,000 annually. We      Management and the United States
     of 80 and may possibly be deceased        determined that since he is vocationally    Coast Guard were pleased with TVA’s
     but still receiving payments. Recent      rehabilitated and his wage-earning          response to the event.
     reviews resulted in the investigation     capacity is greater than the current
     of five enrollees who were identified     pay of the job he held when injured, he
     as receiving significant annual           is no longer eligible for compensation
     earnings while receiving workers’         benefit payments. At the OIG’s request,
     compensation payments. Three              the Department of Labor reviewed
     of these individuals received over        the former painter’s earnings and
     $70,000 each in wages from other          determined he is no longer eligible to
     sources. Similar investigations in        receive workers’ compensation benefits.
     the past resulted in enrollees being      As a result, the projected savings to TVA
     permanently removed from the Office       is $472,007, based on an estimated life
     of Workers’ Compensation Program          expectancy of 22 years.
     rolls, thus saving TVA hundreds of
     thousands of dollars. Cases may also
     be criminally prosecuted if fraudulent
     documents are submitted in order
     to obtain workers’ compensation
     payments.



t
v
a

38
o
i
     Semiannual Report | Rebuilding the Foundation.
g
>C
  omputer Security                       >S
                                            uspicious                                > energy right®
 Issue with Safety                         Appearance of Items                           Program
 Implications                              from BFN on eBay
 Addressed at BFN                          Investigated
At the request of plant management, we    We conducted an investigation based
investigated a computer security and      on a report that TVA nuclear colleagues
related safety issue at BFN. The facts    who were searching for obsolete parts
demonstrated that a foreman logged-       on eBay located several items which         The OIG received a report that an
in to a maintenance software program      appeared to have come from TVA.             employee of TN Electric Utility had
using a second foreman’s computer         Stickers on one item identified it as a     defrauded TVA’s energy right® Program
identification number and password        part purchased for BFN Unit 1. Another      (ERP). TVA ERP provides funding to
without his permission or knowledge       item had a sticker which identified it      local utilities to distribute to customers
and “signed-off” on a security hold       as a TVA part. The seller was L&W           who convert from gas water heaters
(which prevents the flow of water into    Surplus, L.L.C., Decatur, Alabama,          to electric water heaters, etc. The
wells) that had been placed by the        a corporation which buys and sells          employee served as an approving
second foreman. BFN management            industrial surplus equipment, materials,    official for the distribution of ERP funds.
requested the OIG examine the matter      and supplies. L&W Surplus has a             The complaint alleged in pertinent
and noted that identification numbers     contractual relationship with TVA and,      part that the employee completed ERP
and passwords were readily available to   since 2007, has purchased more than         forms and subsequently obtained funds
a number of users and in this instance    $200,000 in surplus equipment from          which were then distributed to friends
were used in such a way as to present     TVA sites, including Hartsville, Browns     and family members though they did
a potential safety hazard to others       Ferry, Bellefonte, and Widows Creek.        not upgrade or replace their water
working in the affected area. Plant       The OIG investigation determined that       heaters. The investigation also revealed
management also expressed concern         items sold at the plant level and on eBay   information bearing on non-TVA related
over disparate explanations of the        had not been adequately inventoried         fraud committed by the employee
events leading to the discovery of the    or itemized prior to sale. A Report of      against the city including using city
problem. The OIG investigated the         Administrative Inquiry was published        funds to purchase gift cards that were
allegation and published a detailed       to BFN, and management responded            supposed to be used in charity auctions
report to BFN management which            positively to the recommended               but were instead used for personal gain.
included the history of identification    remedial actions.                           Criminal prosecution was declined due
number and password use in the                                                        to the comparatively low dollar loss.
affected area. The report was also                                                    However, the city official was forced
made available to the NRC. Plant                                                      to resign, and the city garnished the
management responded positively to                                                    wages of this employee. A report to
the recommendations in the report.                                                    TVA management was provided and a
                                                                                      recommendation approved.




                                                                                                                                    t
                                                                                                                                    v
                                                                                                                                    a

                                                                                                                                    39
                                                                                                                                    o
                                                                                                                                    i
                                                                               Semiannual Report | Rebuilding the Foundation.
                                                                                                                                    g
     > Inaccurate                               > Sha
                                                      wnee Noose Case                        > Shawnee Noose Case
        Reporting in Freeze                        (1 of 2)                                      (2 of 2)
        Protection Program                       On February 15, 2009, a Fossil Field         During the investigation of a separate
        Investigated at BFN                      Services Supervisor took photographs         noose-related complaint (outlined
     At the request of plant management,         of scaffolding constructed at the Unit       previously) another unrelated
     we investigated issues identified as        1 H.P. turbine at the Shawnee Fossil         noose incident was uncovered. An
     problematic in the Freeze Protection        Plant during an outage. When the             investigation determined that a
     Program at BFN. As documented in            supervisor reviewed the photographs          Shawnee Unit Operator had tied a
     a Problem Evaluation Report, two            later on his computer he noticed a           hangman’s noose during his shift in
     heaters identified in the Condensate        noose tied to the back of the scaffolding.   the control room sometime during
     Pipe Tunnel, previously identified as       The rope was cut down and TVA Police         February 2008 (exact date unknown).
     missing in 2003 were documented             was notified. Several TVA contractors        A co-worker informed the Operator
     by TVA technicians as being in place        and employees were interviewed and           that he could get fired for making
     during BFN’s winter readiness “walk-        denied knowledge concerning who              a hangman’s noose. The Operator
     downs” from 2001 to 2008. These             tied and placed the hangman’s noose.         immediately apologized and untied
     heaters are “non-nuclear.” They are         Three individuals were identified who        the noose. An African American Unit
     not direct pieces of nuclear operation      might be capable of tying a hangman’s        Operator witnessed the incident.
     equipment, but are used as preventive       noose and who had allegedly made             The matter was referred to the United
     care equipment for the prevention of        racist comments in the past. However,        States Department of Justice, Civil
     frost and cold damage to other capital      there were no witnesses to the event         Rights Division after consultation
     assets within the tunnel (pipes, etc). An   and no evidence to clearly connect any       with the local United States Attorney’s
     NRC report in 2008 noted two missing        individual to the tying of the noose.        Office. On September 21, 2009, the
     heaters. The OIG investigated the                                                        U.S. Attorney’s office, based on the
     inaccurate reporting and documented         Recommendations were provided                advice of the Department of Justice,
     the history and likely causal factors       to fossil management concerning              declined criminal prosecution.
     in a Report of Administrative Inquiry       sensitivity awareness training
     published to BFN management. Plant          in smaller group settings. The
     managers responded positively to the        recommended training included
     recommendations made in the report.         procedures to follow in the event a
                                                 hangman’s noose is discovered in the
                                                 future. Fossil management responded
                                                 to the OIG recommendations by
                                                 implementing smaller setting sensitivity
                                                 awareness training for all Shawnee
                                                 employees, contractors, and all
                                                 Power Service Shop employees.




t
v
a

40
o
i
     Semiannual Report | Rebuilding the Foundation.
g
>K
  ingston Fossil                          >T
                                             VA Contractor                          > Computer Misuse
 Plant Administrative                       Investigated                                Investigation Results
 Employee Changed                           for Fraudulent                              in 30-day Suspension
 Husband’s Leave to                         Temporary Living                         An investigation was predicated on a
 Paid Time Worked                           Expense Submissions                      TVA Enterprise IT Security Division
TVA Management informed us that            A TVA contractor at the Watts Bar         referral alleging that a unit operator at
it appeared a Kingston Fossil Plant        Nuclear Plant received temporary          a TVA fossil plant had been accessing
Administrative employee was changing       living allowances totaling more than      pornographic Web sites during his
her husband’s leave in the payroll         $17,000 by submitting two different       assigned shift. Proxy logs obtained by
system to paid time. Each time he          “permanent addresses” to TVA for          TVA Enterprise IT Security contained
entered leave into the system and after    that purpose. The contractor had a        references tending to substantiate the
it was subsequently approved by his        temporary address in Chattanooga,         allegation. A more thorough forensic
supervisor, she entered the system         Tennessee, and a permanent address        computer investigation followed leading
and changed the leave to straight time,    in Alabama. He also owned a home          to an interview of the subject, during
allowing her husband to be paid as if he   in Atlanta. The contractor submitted      which he confessed to downloading
were at work, when he was actually on      two different permanent addresses to      extremely graphic pornography from
leave. Our investigation verified that     TVA in order to qualify for a temporary   the Internet onto TVA computers for
the Kingston Fossil Plant Administrative   living allowance. Neither address was     the past five years.
employee cancelled her husband’s           his permanent address. The contract
leave on two instances. However, the       employee died prior to being indicted.    OIG issued a report to management
Kingston Fossil Plant Administrative                                                 detailing the findings of the
employee had announced her                                                           investigation both from a personnel
retirement from TVA and retired prior                                                and technical standpoint. TVA
to the completion of our investigation.                                              management suspended the employee
The husband’s leave was corrected.                                                   for 30 days. TVA IS assessed the
                                                                                     findings and is in the process of
                                                                                     implementing Valley-wide processes
                                                                                     to better address such misuse.




> TVA Manager with Procurement Authority Found Self-Dealing
An investigation followed confidential     due in 2007 or 2008, despite repeated     plant personnel after purchase requests
reporting alleging that a TVA manager      notifications. In 2008, the manager was   are submitted by plant staff.
used his management position at TVA to     instructed to disclose his finances for
procure wheat straw from a side busi-      January 1 through December 31, 2007.      The manager was listed as the approval
ness for personal financial gain. The                                                authority on nine occasions from 2004
manager had procurement authority for      Our investigation determined that the     through 2007 for Widows Creek Fossil
anything related to fossil outage work     former manager is part owner of a         Plant wheat straw purchase requests
which included the purchase of wheat       wheat straw business, along with an-      that were ultimately purchased from
straw. Although the individual became      other TVA employee, which sells straw     the pertinent vendor.
a manager in 2003, he was not required     to several customers including a TVA
                                           vendor. The TVA fossil plant purchased    Based on investigative findings, the OIG    t
by TVA’s General Counsel’s office to
                                           more than $38,000 in straw from           formally recommended a number of            v
provide a financial disclosure until
                                           the vendor from 2002 through 2008.        remedial actions designed to identify       a
2007. The manager did not provide
                                           Wheat straw is ordered by the fossil      and scrutinize both employees and
the required financial disclosure form                                               contracts at risk for self-dealing.         41
                                                                                                                                 o
                                                                                                                                 i
                                                                               Semiannual Report | Rebuilding the Foundation.
                                                                                                                                 g
 Rebuilding the Foundation.            Legislation and Regulations




Semiannual Report | Rebuilding the Foundation.
Legislation and Regulations
In fulfilling its responsibilities under the IG Act of 1978, as
amended, the OIG follows and reviews existing and proposed
legislation and regulations that relate to the mandate,
operations and programs of TVA. Although TVA’s Office of
the General Counsel reviews proposed or enacted legislation
that could affect TVA activities, the OIG independently follows
and reviews proposed legislation that affects the OIG and/or
relates to economy and efficiency or waste, fraud, and abuse
of TVA programs or operations.

Major pieces of legislation being followed by the TVA OIG
during the past six months include:



> H.R. 2454 – American Clean Energy and Security Act of 2009
This comprehensive piece of legislation     bill sets new set new energy-efficiency      are the source of the overwhelming
significantly impacts large producers       standards for lighting products,             proportion of greenhouse gas from
of electric power, including TVA. The       commercial furnaces, and appliances.         electric power producers, would have
legislation covers many items, a few of     The bill also requires federal agencies to   to capture 65 percent of their carbon
which are as follows. The bill amends       get 20 percent of their electricity from     emissions for plants built after 2020.
the Public Utility Regulatory Policies      renewable sources by 2020 and allows         The bill also encourages deployment of
Act to establish a combined national        the federal government to enter into         a smart grid to increase grid efficiency
renewable energy and energy efficiency      long-term power purchase agreements          and to reduce utility peak loads. It
resource standard, mandating those          for renewable energy. The bill also          directs the establishment of a federal
suppliers of electricity marketing          contains provisions directed toward the      policy on electric grid planning,
more than 4 million megawatt-hours          control of greenhouse gas emissions.         including facilitating transmission to
annually to obtain 20 percent of their      For example, new coal-fired power            carry renewably-generated electricity,
supply from renewable energy credits        plants must reduce their emissions by        and it provides for the Federal Energy
and demonstrated energy efficiency          at least 65 percent if they receive air      Regulatory Commission to have
savings by 2021 (starting at 6 percent      permits after 2020. Plants permitted         jurisdiction of interstate transmission
in 2012 and increasing the annual           between 2009 and 2015 have to cut            projects in the Western Interconnection.
renewable combined renewable target         emissions by at least 50 percent within      The bill also establishes a cap-and-trade
until it reaches 20 percent by 2021). No    four years after a threshold amount of       program to limit total emissions of
more than one-quarter of this amount        carbon capture and storage equipped          carbon dioxide and other heat-trapping
may be met by efficiency savings. The       capacity is operating. Coal plants, which    pollutants from major sources.




                                                                                                                                     t
                                                                                                                                     v
                                                                                                                                     a

                                                                                                                                     43
                                                                                                                                     o
                                                                                                                                     i
                                                                                  Semiannual Report | Rebuilding the Foundation.
                                                                                                                                     g
     > S. 1462 – American Clean Energy and Leadership Act of 2009
     Similar to the legislation in the other     2021). No more than 26.67 percent of         one on the efficiencies and the annual
     chamber, this is a comprehensive            this amount can be met with energy           CO₂ and other emissions output from
     energy bill. The legislation covers         efficiency, making the renewable energy      electric generation facilities. The bill
     many items a few of which are pointed       mandate effectively about 10 percent by      also provides for the Federal Energy
     out herein. This bill also establishes      2021. However, unlike the House bill,        Regulatory Commission to have
     a combined national renewable               the Senate bill contains no provisions       jurisdiction over high-priority electric
     energy and energy efficiency resource       for the control of greenhouse gas, i.e.,     transmission facilities when states
     standard, requiring those suppliers         cap and trade. The Senate bill affirms       have been unable to resolve the matter
     of electricity marketing more than 4        that the use of nuclear energy should        and the bill also contains a number of
     million megawatt-hours annually to          be expanded and creates a National           provisions in regard to improving the
     obtain 15 percent of their supply from      Commission on Nuclear Waste to               electricity transmission grid.
     renewable energy credits or energy          carry out six studies related to the
     efficiency credits by 2021 (starting at     management and disposal of nuclear
     3 percent in 2011 and increasing the        waste for both civilian and defense
     annual renewable combined renewable         activities. A number of other studies
     target until it reaches 15 percent by       are also called for by this bill including




     > H.R. 1507 – Whistleblower Protection Enhancement Act of 2009
     This bill amends federal personnel law      have the matter decided by a jury. As        to the complete investigation file of
     relating to whistleblower protections       to cases decided by the Merit Systems        the IG in accordance with the Privacy
     for federal employees by expanding          Protection Board, the whistleblower          Act. And the investigation of the IG
     the concept of protected disclosure         can file an appeal within 90 days. The       shall be deemed closed for purposes
     to include lawful disclosures without       bill provides for a choice of appellate      of disclosure when an employee files
     restriction to time, place, form, motive,   forums other than the Federal                an appeal to an agency head or a court
     context, forum, or prior disclosures,       Circuit Court of Appeals. Prevailing         of competent jurisdiction. IG’s would
     including a disclosure in the ordinary      whistleblowers can be awarded back           also be required to issue annual reports
     course of an employee’s duties. It          pay and compensatory damages.                of their agencies’ compliance with the
     also expands the protections to cover                                                    enacted statute.
     contractor employees. Significantly,        The bill defines evidentiary standards
     if a federal employee or contractor         applicable to whistleblower disclosures.
     employee experiences retaliation            The bill requires an agency IG to either
     and the administrative process fails        make a determination that a complaint
     to provide relief within 180 days the       alleging reprisal is either frivolous or
     bill would allow the employee to file a     submit a report within 180 days after
     case with a federal district court and      receiving the complaint. The person
                                                 alleging the reprisal shall have access



t
v
a

44
o
i
     Semiannual Report | Rebuilding the Foundation.
g
> S. 372 – Whistleblower Protection Act of 2009
This proposed legislation also expands    lowers the agencies burden of proof          workability), and includes a provision
the definition as to what constitutes a   from “clear and convincing evidence”         whereby a federal employee may ask
“protected disclosure,” and unlike the    to the “preponderance of the evidence”       the MSPB to certify their case for federal
House bill it creates a Whistleblower     caps compensatory damages, and               court prior to the full MSPB hearing.
Ombudsman in every IG office to           creates a sixty-day statute of limitations   The review before the court is not de
advocate for federal whistleblowers.      for filing claim of retaliation. It also     novo and MSPB’s denial of certification
The bill is also different from the       provides a different methodology             is examined by the appellate court using
proposal in the House in a number of      of protection to those employed by           the standard of “arbitrary, capricious
significant aspects. It exempts from      national security agencies through           or an abuse of discretion.” It limits jury
protected disclosures violations of law   the establishment of an adjudicatory         trials, and contains a five-year sunset
which are minor or inadvertent, negates   system within the defendant agency.          provision for that provision granting
a claim of reprisal when a supervisor     The proposed legislation provides the        employees the right of appeal to the
shows that the personnel action in        Merit System Protection Board with a         federal circuit court of appeals where
question would have been taken in         summary judgment procedure (with             they reside.
the absence of any protected activity,    a five-year sunset provision to test its




> H.R. 493 – Coal Ash Reclamation, Environment, and Safety Act of 2009
This bill orders the Secretary of the     poses to groundwater, human health,
Interior to prescribe federal design,     and the environment. It also requires
engineering, and performance standards    monitoring and inspection regimes
on new coal ash impoundments; and         for both existing and future coal ash
orders an inventory of existing coal      impoundments.
ash impoundments and the risks each




>S
  . 942 – The Government Charge Abuse Card Abuse Prevention
 Act of 2009
This proposed legislation requires
agency IG to conduct periodic
assessments of their agencies’ purchase
card or convenience check programs
and to report their findings and recom-
mendations to agency heads and the
Office of Management and Budget.                                                                                                    t
                                                                                                                                    v
                                                                                                                                    a

                                                                                                                                    45
                                                                                                                                    o
                                                                                                                                    i
                                                                                Semiannual Report | Rebuilding the Foundation.
                                                                                                                                    g
 Rebuilding the Foundation.            Appendices




Semiannual Report | Rebuilding the Foundation.
Appendix 1
               Index On Reporting Requirements Under The IG Act
        REPORTING                                             REQUIREMENT                                       PAGE

  Section 4(a)(2)               Review of Legislation and Regulations                                            42-45

  Section 5(a)(1)               Significant Problems, Abuses, and Deficiencies                                   24-41

  Section 5(a)(2)               Recommendations With Respect to Significant Problems, Abuses,                    24-41
                                and Deficiencies
  Section 5(a)(3)               Recommendations Described in Previous Semiannual Reports in                   Appendix 4
                                Which Corrective Action Has Not Been Completed
  Section 5(a)(4)               Matters Referred to Prosecutive Authorities and the Prosecutions              Appendix 5
                                and Convictions That Have Resulted
  Section 5(a)(5) and 6(b)(2)   Summary of Instances Where Information Was Refused                               None

  Section 5(a)(6)               Listing of Audit and Inspection Reports                                       Appendix 2

  Section 5(a)(7)               Summary of Particularly Significant Reports                                      24-41

  Section 5(a)(8)               Status of Management Decisions for Audit and Inspection Reports               Appendix 3
                                Containing Questioned Costs
  Section 5(a)(9)               Status of Management Decisions for Audit and Inspection Reports               Appendix 3
                                Containing Recommendations That Funds Be Put to Better Use
  Section 5(a)(10)              Summary of Audit and Inspection Reports Issued Prior to the Beginning of         None
                                the Reporting Period for Which No Management Decision Has Been Made
  Section 5(a)(11)              Significant Revised Management Decisions                                         None

  Section 5(a)(12)              Significant Management Decisions With Which the Inspector General Disagreed      None

  Section 5(a)(13)              Information under Federal Financial Management Improvement Act of 1996           None




                                                                                                                                    t
                                                                                                                                    v
                                                                                                                                    a

                                                                                                                                    47
                                                                                                                                    o
                                                                                                                                    i
                                                                                   Semiannual Report | Rebuilding the Foundation.
                                                                                                                                    g
     Appendix 2

                            OIG AUDIT REPORTS ISSUED DURING THE SIX-MONTH
                                   PERIOD ENDED SEPTEMBER 30, 2009
         Report
       Number and                                                                          Questioned       Unsupported     Funds to be Put
          Date                                         Title                                 Costs             Costs         to Better Use
                                                                CONTRACT AUDITS
     2008-12159      Preaward Review - Proposal for Steam Generator Replacement              $          0     $        0           $3,498,100
     04/30/2009      at Sequoyah Nuclear Plant

     2009-12496      Preaward Review - Proposed Billing Rates for Security Services                     0              0             889,000
     05/20/2009

     2008-11721      ALSTOM Power Inc., Air Preheater Company – Air Preheater                 2,232,780        2,025,739                   0
     05/28/2009      Equipment for TVA Fossil Plants

     2008-11506      Siemens Westinghouse Power Corporation – Turbine Generator                  281,023          274,294                  0
     06/10/2009      Outage and Other Support Services

     2009-12359      Preaward Review – Proposal to Provide Combustion Turbine Generators                0              0                   0
     06/17/2009
     2009-12473      Preaward Review – Proposal for Nuclear Steam Supply Side Alliance                  0              0                   0
     06/26/2009      Agreement
     2009-12582      Preaward Review – Proposal to Provide Modification, Outage,                        0              0            9,900,000
     07/14/2009      and Supplemental Maintenance Services
     2008-11828      Page Clearing, Inc. – Right-of-Way Clearing Services                         34,678            5,753                  0
     07/16/2009
     2009-12587      Preaward Review – Proposal to Provide Modification, Outage,                        0              0           14,300,000
     08/13/2009      and Supplemental Maintenance Services
     2007-001C-02    Analytic Stress Relieving, Inc. – Technician Services                         1,350            1,350                  0
     08/14/2009
     2007-001C-01    Shaw Group, Inc. – Subcontracted Technician Services                     1,075,020           580,346                  0
     09/01/2009
     2009-12584      Preaward Review – Proposal to Provide Modification, Outage,                        0              0           14,819,000
     09/01/2009      and Supplemental Services
     2009-12726      Preaward Review – Proposal to Provide Maintenance and                              0              0             495,029
     09/03/2009      Modification Services at Watts Bar Nuclear Plant, Unit 2
     2009-12756      Preaward Review – Proposal for Watts Bar Nuclear Plant Unit 2                      0              0             330,000
     09/03/2009      Maintenance and Modification Project
     2009-12380      Preaward Review – Proposal for Nuclear Steam Supply Side                           0              0            6,339,000
     09/14/2009      Alliance Agreement
     2008-11999      Electric Power Research Institute – Research and Development             1,209,371            84,371                  0
     09/23/2009      Services
     2008-11510      Stone & Webster Construction, Inc. – Nuclear Modification and            1,909,396                0                   0
     09/25/2009      Construction Services
                                                               DISTRIBUTOR AUDITS
t    2008-12036      City of Oxford Electric Department                                      $          0     $        0       $           0
     08/31/2009
v
     2008-12039      Hickman-Fulton Counties Rural Electric Cooperative Corporation                     0              0                   0
a    09/29/2009

48
o
i
     Semiannual Report | Rebuilding the Foundation.
g
                                        FINANCIAL AND OPERATIONAL AUDITS
2009-12432   Maintain Fossil Fuel Master File – Sarbanes-Oxley 404 Testing           $        0     $        0       $        0
05/04/2009
2009-12440   Pensions, Employee Benefits & OPEBs Process – Sarbanes-Oxley 404                 0              0                0
05/06/2009   Testing
2009-12430   Depreciating Fixed Assets – Sarbanes-Oxley 404 Testing                           0              0                0
05/07/2009
2009-12445   Asset Retirement Fund Administration – Sarbanes-Oxley 404 Testing                0              0                0
05/12/2009
2009-12444   Alternative Procurement Methods-Miscellaneous Vouchers – Sarbanes-               0              0                0
05/20/2009   Oxley 404 Testing
2009-12442   Alternative Procurement Methods-Purchasing Card – Sarbanes-Oxley                 0              0                0
05/21/2009   404 Testing
2009-12424   Energy Trading – Sarbanes-Oxley 404 Testing                                      0              0                0
05/22/2009
2009-12437   Perform Transaction Processing (Feeder Files) – Sarbanes-Oxley 404               0              0                0
05/22/2009   Testing
2009-12590   2008 Green Power Accreditation                                                   0              0                0
06/01/2009
2009-12436   Receiving Fossil Fuel Inventory – Sarbanes-Oxley 404 Testing                     0              0                0
06/04/2009
2009-12449   Disbursing Payroll – Sarbanes-Oxley 404 Testing                                  0              0                0
06/08/2009
2009-12434   Fossil Fuel Burn – Sarbanes-Oxley 404 Testing                                    0              0                0
06/16/2009
2009-12447   End-Use Billing – Sarbanes-Oxley 404 Testing                                     0              0                0
06/17/2009
2009-12448   Pay Employees – Sarbanes-Oxley 404 Testing                                       0              0                0
06/17/2009
2009-12435   Costing Fossil Fuel Inventory – Sarbanes-Oxley 404 Testing                       0              0                0
06/18/2009
2009-12422   Account Set-up and Monitoring – Sarbanes-Oxley 404 Testing                       0              0                0
06/19/2009
2009-12438   Perform Transaction Processing (Including JEs) – Sarbanes-Oxley                  0              0                0
06/19/2009   404 Testing
2009-12441   Processing Accounts Payable – Sarbanes-Oxley 404 Testing                         0              0                0
06/19/2009
2009-12431   Lease Transactions – Sarbanes-Oxley 404 Testing                                  0              0                0
06/23/2009
2009-12443   Alternative Procurement Methods-Gold Cards – Sarbanes-Oxley                      0              0                0
06/23/2009   404 Testing
2009-12429   Acquire/Develop/Dispose of Fixed Assets – Sarbanes-Oxley                         0              0                0
06/25/2009   404 Testing
2009-12450   Maintaining Payroll Master Files – Sarbanes-Oxley 404 Testing                    0              0                0
06/26/2009
2009-12451   Recording Time – Sarbanes-Oxley 404 Testing                                      0              0                0
06/26/2009
2009-12433   Manage Fossil Fuel Inventory – Sarbanes-Oxley 404 Testing                        0              0                0
06/30/2009                                                                                                                         t
2009-12425   Gas: Physical – Sarbanes-Oxley 404 Testing                                       0              0                0    v
07/02/2009
                                                                                                                                   a

                                                                                                                                   49
                                                                                                                                   o
                                                                                                                                   i
                                                                                  Semiannual Report | Rebuilding the Foundation.
                                                                                                                                   g
     Appendix 2 (Continued)
     2009-12446      Manage Contracting – Sarbanes-Oxley 404 Testing                              0            0             0
     07/02/2009
     2009-12428      Approval Capital and Expense Projects – Sarbanes-Oxley 404 Testing           0            0             0
     07/07/2009
     2009-12423      Alternative Procurement Methods-Convenience Checks –                         0            0             0
     07/27/2009      Sarbanes-Oxley 404 Testing

                                                 INFORMATION TECHNOLOGY AUDITS
     2009-12470      Manage Changes/Install and Accredit Solutions and Changes –          $       0    $       0     $       0
     05/29/2009      Sarbanes-Oxley 404 Testing
     2009-12471      Manage Operations – Sarbanes-Oxley 404 Testing                               0            0             0
     05/29/2009
     2008-12046      Effectiveness of Security Monitoring                                         0            0             0
     06/04/2009
     2009-12588      Fuelworx Application – Sarbanes-Oxley 404 Testing                            0            0             0
     06/15/2009
     2009-12472      Passport Application – Sarbanes-Oxley 404 Testing                            0            0             0
     06/17/2009
     2009-12581      CWMi Application and Interfaces – Sarbanes-Oxley 404 Testing                 0            0             0
     06/17/2009
     2009-12575      eRemittance Application – Sarbanes-Oxley 404 Testing                         0            0             0
     06/18/2009
     2009-12580      WebTrader Application – Sarbanes-Oxley 404 Testing                           0            0             0
     06/24/2009
     2009-12631-01   eFMS Business Process Automated Controls – Sarbanes-Oxley                    0            0             0
     06/24/2009      404 Testing
     2009-12631-02   eFMS Business Process Automated Controls – Sarbanes-Oxley                    0            0             0
     06/25/2009      404 Testing
     2009-12631-03   eFMS Business Process Automated Controls – Sarbanes-Oxley                    0            0             0
     06/26/2009      404 Testing
     2009-12583      PowerBilling Application – Sarbanes-Oxley 404 Testing                        0            0             0
     06/29/2009
     2009-12576      eCash Application – Sarbanes-Oxley 404 Testing                               0            0             0
     06/30/2009
     2009-12589      MV90 Application – Sarbanes-Oxley 404 Testing                                0            0             0
     06/30/2009
     2009-12468      DS5 Ensure Systems Security – Sarbanes-Oxley 404 Testing                     0            0             0
     07/10/2009
     2009-12338-01   DS11 Manage Data – Sarbanes-Oxley 404 Testing                                0            0             0
     07/13/2009
     2008-12127      Control System: General, Physical, and Security Controls Review              0            0             0
     09/24/2009
     2009-12338-03   Enterprise Backup and Recovery-River Operations                              0            0             0
     09/24/2009
     2008-11792      Pre-implementation Review of Enterprise Asset Management System              0            0             0
     09/29/2009
t
      TOTAL
v     AUDITS (66)                                                                         $6,743,618   $2,971,853   $50,570,129
a

50
o
i
     Semiannual Report | Rebuilding the Foundation.
g
                                 OIG INSPECTION REPORTS ISSUED DURING THE
                                SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2009

  Report Number                                                                                     Questioned       Unsupported   Funds to be Put
    and Date                                              Title                                       Costs             Costs       to Better Use
 2008-12007             Monroe County Electric Power Administration – Distributor Review                $        0      $      0        $       0
 05/13/2009
 2008-12040                                                                                                      0             0                0
                        Lewisburg Electric System – Distributor Review
 05/13/2009
 2008-12003                                                                                                      0             0                0
                        Maintain and Gain Transactions Review
 05/15/2009
 2008-12283-01                                                                                                   0             0                0
                        Kingston Fossil Plant Ash Slide – Interim Report
 06/12/2009
 2007-11399                                                                                                      0             0                0
                        Review of TVA’s Financial Performance Results
 06/23/2009
 2008-12283-02          Kingston Fossil Plant Ash Spill – Root Cause Study and Observations                      0             0                0
 07/28/2009             about Ash Management
 2009-12695-01                                                                                                   0             0                0
                        Cherokee Dam Campground Review
 09/29/2009
 2009-12695-02                                                                                                   0             0                0
                        Douglas Dam Headwater Campground Review
 09/29/2009
 2009-12695-03                                                                                                   0             0                0
                        Douglas Dam Tailwater Campground Review
 09/29/2009
 2009-12695-04                                                                                                   0             0                0
                        Foster Falls Campground Review
 09/29/2009
 2009-12695-05                                                                                                   0             0                0
                        Melton Hill Dam Campground Review
 09/29/2009
 2009-12695-06                                                                                                   0             0                0
                        Barton Springs Campground Review
 09/29/2009
 2009-12695-07                                                                                                   0             0                0
                        Loyston Point Campground Review
 09/29/2009
 2009-12695-08                                                                                                   0             0                0
                        Pickwick Dam Tailwater Campground Review
 09/29/2009
 2009-12695-09                                                                                                   0             0                0
                        Watauga Dam Tailwater Campground Review
 09/29/2009
 2009-12695-10                                                                                                   0             0                0
                        Mallard Creek Campground Review
 09/29/2009
 2009-12695-11                                                                                                   0             0                0
                        Wilson Dam Lower Rockpile Campground Review
 09/29/2009
 2009-12702                                                                                                      0             0                0
                        Coal Contracts Review – Rio Tinto Energy America-Antelope Mine
 09/30/2009
 2009-12703             Coal Contracts Review – Rio Tinto Energy America-Jacobs                                  0             0                0
 09/30/2009             Ranch Mine
 2009-12704             Coal Contracts Review – Powder River Coal-North Antelope                                 0             0                0
 09/30/2009             Rochelle Mine
 2009-12705             Coal Contracts Review – Thunder Basin Coal Company-Black                                 0             0                0
 09/30/2009             Thunder Mine
                                                                                                                                                     t
 TOTAL
 INSPECTIONS (21)
                                                                                                                 0             0                0    v
                                                                                                                                                     a
Note: A summary of or link to the full report may be found on the OIG’s website at http://www.tvaoig.gov.
                                                                                                                                                     51
                                                                                                                                                     o
                                                                                                                                                     i
                                                                                                  Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                     g
     Appendix 3
                                 TABLE I: TOTAL QUESTIONED AND UNSUPPORTED COSTS
                                                       AUDITS
                                                                                          Number of                 Questioned                 Unsupported
                                     Audit Reports                                         Reports                    Costs                       Costs
         A. For which no management decision has been made                                    0                                  $0                             $0
             by the commencement of the period
         B. Which were issued during the reporting period                                      7                        $6,743,618                   $2,971,853
         Subtotal (A+B)                                                                        71                      $6,743,618                   $2,971,853
         C. F or which a management decision was made during the                              52                       $2,833,678                   $2,315,795
            reporting period
            1. Dollar value of disallowed costs                                                5                        $2,798,657                   $2,312,148
            2. Dollar value of costs not disallowed                                            2                              $35,021                       $3,647
         D. For which no management decision has been made                                    4                        $3,909,940                        $656,058
             by the end of the reporting period
         E. F or which no management decision was made within                                 0                                  $0                             $0
            six months of issuance




                                 TABLE I: TOTAL QUESTIONED AND UNSUPPORTED COSTS
                                                    INSPECTIONS
                                                                                          Number of                 Questioned                 Unsupported
                                     Audit Reports                                         Reports                    Costs                       Costs
         A. For which no management decision has been made                                    0                         $0                          $0
             by the commencement of the period
         B. Which were issued during the reporting period                                      0                          0                           0
         Subtotal (A+B)                                                                        0                          0                           0
         C. F or which a management decision was made during the                              0                          0                           0
             reporting period
            1. Dollar value of disallowed costs                                                0                          0                           0
            2. Dollar value of costs not disallowed                                            0                          0                           0
         D. F or which no management decision has been made                                   0                          0                           0
             by the end of the reporting period
         E. F or which no management decision was made within                                 0                          0                           0
             six months of issuance




t
v
     1
          he subtotal of reports (A+B) differs from the sum of C and D when the same report(s) contain recommendations for which a management decision was made
         T
a        and others for which a management decision was not made by the end of the semiannual period.


52   2
          he total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the same
         T
         report(s) contain both recommendations agreed to by management and others not agreed to by management.
o
i
     Semiannual Report | Rebuilding the Foundation.
g
                                     TABLE II: FUNDS TO BE PUT TO BETTER USE
                                                      AUDITS

                                 Audit Reports                                        Number of Reports               Funds to be Put to Better Use
     A. F or which no management decision has been made                                        0                                                       $0
         by the commencement of the period
     B. Which were issued during the reporting period                                           8                                          $50,570,129
     Subtotal (A+B)                                                                             8   3
                                                                                                                                          $50,570,129
     C. F or which a management decision was made during the                                   44                                         $10,682,129
        reporting period
        1. Dollar value of recommendations agreed to by management                              3                                           $6,593,129
        2. Dollar value of recommendations not agreed to by management                          3                                           $5,959,150
     D. For which no management decision has been made                                         5                                          $39,888,000
         by the end of the reporting period
     E. For which no management decision was made within                                       0                                                       $0
         six months of issuance




                                     TABLE II: FUNDS TO BE PUT TO BETTER USE
                                                   INSPECTIONS
                                 Audit Reports                                        Number of Reports              Funds to be Put to Better Use
     A. F or which no management decision has been made by the                                 0                                    $0
         commencement of the period
     B. Which were issued during the reporting period                                           0                                     0
     Subtotal (A+B)                                                                             0                                     0
     C. F or which a management decision was made during the                                   0                                     0
         reporting period
        1. Dollar value of recommendations agreed to by management                              0                                     0
        2. D
            ollar value of recommendations not agreed to by                                    0                                     0
           management
     D. F or which no management decision has been made by the                                 0                                     0
         end of the reporting period
     E. F or which no management decision was made within six                                  0                                     0
         months of issuance




                                                                                                                                                             t
                                                                                                                                                             v
 The subtotal of reports (A+B) differs from the sum of C and D when the same report(s) contain recommendations for which a management decision was made
3

 and others for which a management decision was not made by the end of the semiannual period.                                                                a

 The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the same
4                                                                                                                                                           53
 report(s) contain both recommendations agreed to by management and others not agreed to by management.
                                                                                                                                                             o
                                                                                                                                                             i
                                                                                                     Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                             g
     Appendix 4
     AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING
     As of the end of the semiannual period, final corrective actions associated with six audits and five inspections were not completed within one
     year of the final report date. Presented below for each audit and inspection are the report number and date and a brief description of the
     open recommendation(s) and the date management expects to complete final action, if available.


        Audit Report
                                              Report Title and Recommendation(s) for Which Final Action is Not Complete
      Number and Date

       2007-11348-01       IT Security Organizational Effectiveness
       03/26/2008

                           TVA management agreed with our recommendations and has completed actions on three of the six recommendations. TVA
                           is in the process of implementing program and organizational improvements. Action plans are scheduled for completion
                           by March 30, 2010.
      2007-11216           Actions to Protect Social Security Numbers and Eliminate Unnecessary Use
      06/02/2008
                           TVA management has completed final action for one recommendation. According to Information Services, it is on track to
                           meet the action deadlines for the remaining two recommendations (June 2010).
      2008-11754           Computer Operations-Manage Facilities – SOX 404 Testing
      06/13/2008
                           Management has completed actions to address three of the five recommendations. Corrective action for the remaining two
                           recommendations is on track for completion in September 2010.
      2007-11388           Sequoyah Nuclear Plant – Cyber Security Assessment
      08/21/2008
                           TVA management from Nuclear Power Group and Information Services provided corrective action plans to address the
                           recommendations and indicated all corrective actions would be completed by October 2010.
      2008-11809           Manage Site Material and Record Inventory Movement – SOX 404 Testing
      08/21/2008
                           According to TVA management, as of September 30, 2009, TVA had implemented additional inventory controls to address
                           the two outstanding findings and recommendations. TVA is preparing related documentation and testing the associated
                           controls. Final action is expected to be completed by October 15, 2009.
      2008-11964           Federal Information Security Management Act Evaluation
      09/25/2008
                           Management agreed with our findings and recommendations and plans to complete final action by November 30, 2009.




t
v
a

54
o
i
     Semiannual Report | Rebuilding the Foundation.
g
    Inspection Report
                                               Report Title and Recommendation(s) for Which Final Action is Not Complete
    Number and Date
    2005-518I             Physical and Environmental Controls for the Chattanooga Data Center
    08/31/2005
                          Information Services has developed a Unified Communications Strategy and Project Plan that includes replacing the
                          telephone system by the end of 2012.
    2005-522I             TVA’s Role as a Regulator
    06/13/2006
                          The original findings of the OIG report have been addressed, but full implementation will take time. Recommendations
                          for all of the OIG findings from the report have been developed. The TVA Regulatory Work Group comprised of officers of
                          the company has been established to implement the recommendations. The TVA Board is keenly interested in this topic
                          and has requested additional information on TVA regulatory authority and scope which has been provided. The OIG has
                          provided recommendations on these issues. Recommendations on TVA's role as regulator were provided to the Audit,
                          Governance, and Ethics Committee of the Board in August 2009. TVA will be presenting recommendations to the TVA
                          Board in November 2009. An estimated completion date for final action will be established once the Board has reviewed
                          TVA management recommendations and provided guidance.
    2007-11428-08         Normandy Cedar Point Public Use Area lease Agreement
    08/07/2008
                          Environmental Stewardship Relations has sent the lessee a letter outlining areas of compliance that must be addressed. If
                          documentation is not submitted for corrective action, required investment and performance bond, Environmental Steward-
                          ship Relations will proceed with terminating the lease and take possession of the TVA properties.
    2008-11874            Contractor’s Accounting for the Watts Bar Nuclear Plant Unit 2 Construction Project
    09/12/2008
                          The remaining enhancements require programmer development and have not been completed as originally forecasted. The
                          programmer that originally developed the billing program has been contacted and has submitted a proposal to improve the
                          billing process and control points. A request was recently approved by TVA to fund the program enhancement activities
                          identified in the programmer's proposal. The improvements are scheduled to be completed by November 30, 2009.
    2007-11443            Contractor Background Checks Applicable to the Watts Bar Nuclear Plant Unit 2 Construction Project
    09/30/2008
                          Nuclear Power Group and Human Resources are currently working to determine what changes are necessary to the
                          background checks for Watts Bar Nuclear Plant Unit 2 contractor employees and if any changes are required to TVA
                          Business Practice 29.




Appendix 5
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1
    Referrals

    Subjects Referred to U.S. Attorneys                                                     45

    Subjects Referred to State/Local Authorities                                             6


    Results

    Subject Indicted                                                                         3

    Subjects Convicted                                                                       3

    Referrals Declined                                                                      34
                                                                                                                                                      t
                                                                                                                                                      v
                                                                                                                                                      a

                                                                                                                                                      55
                                                                                                                                                      o
These numbers include task force activities and joint investigations with other agencies.
1
                                                                                                                                                      i
                                                                                                 Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                      g
     Appendix 6
     HIGHLIGHTS - STATISTICS
                                                              SEPT 30,              MAR 31,             SEPT 30,              MAR 31,            SEPT 30,
                                                                2009                 2009                2008                  2008                2007
     AUDITS
     AUDIT STATISTICS
     Carried Forward                                  	           70      	              28      	           47       	           35       	          36
     Started                                          	           46      	              59      	           53       	           52       	          72
     Canceled                                         	           (6)     	             (3)      	          (2)       	           (2)      	         (7)
     Completed                                        	          (66)     	            (14)      	         (70)       	         (38)       	        (66)
     In Progress at End of Reporting Period           	           44      	              70      	           28       	           47       	          35
     AUDIT RESULTS (Thousands)
     Questioned Costs                                 	        $6,744     	         $1,226       	      $3,609        	         $774       	     $4,635
     Disallowed by TVA                                	         2,799     	            829       	       1,802        	          370       	      3,324
     Recovered by TVA                                 	          909      	            644       	         676        	        3,339       	      1,274

     Funds to Be Put to Better Use                    	       $50,570     	              $0      	    $28,653         	    $100,990        	         $19
     Agreed to by TVA                                 	         4,723     	               0      	      28,120        	      53,987        	      8,529
     Realized by TVA                                  	         4,395     	               0      	      26,460        	      53,987        	         948

     OTHER AUDIT-RELATED PROJECTS
     Completed                                        	           16      	               8      	            7       	             6      	          17
     Cost Savings Identified/Realized (Thousands)     	           $0      	              $0      	           $0       	           $0       	          $0

     INSPECTIONS
     Completed                                        	           21      	               4      	           16       	             8      	          16
     Cost Savings Identified/Realized (Thousands)     	           $0      	             $0       	          $0        	           $0       	        $15

     INVESTIGATIONS1
     INVESTIGATION CASELOAD
     Opened                                           	          194      	            171       	          161       	          155       	         113
     Closed                                           	          223      	              91      	          135       	          121       	         121
     In Progress at End of Reporting Period           	          251      	            280       	          200       	          174       	         140

     INVESTIGATION RESULTS
     Recoveries                                           	      $20.6	           $10,725.3	              $632.6      	     $25,262        	         $27
     Projected Savings                                    	      472.1	                 0	                   0        	        4,137       	         575
     Fines/Penalties                                      	         .4	               352.7	                 1.6      	          206       	           1

     Disciplinary Actions Taken (# of Subjects)       	            6      	               3      	           15       	             9      	           8
     Counseling/Management Techniques Employed
     (# of Cases)                                     	           10      	               1      	             6      	           16       	           3

t
     Referred to U.S. Attorneys                       	           45      	              18      	             7      	           19       	           5
v
     Referred to State/Local Authorities2             	            6      	               --     	            --      	            --      	           --
a
     Indicted                                         	            3      	               4      	           14       	             4      	           6
56   Convicted                                        	            3      	               3      	             3      	             3      	           2

o
i                                                                         1
                                                                              These numbers include task force activities and joint investigations with other
     Semiannual Report | Rebuilding the Foundation.                           agencies.
g                                                                         2
                                                                              Category added in semiannual period ended September 30, 2009.
GLOSSARY ABBREVIATIONS AND ACRONYMS
Disallowed Cost – A questioned cost         The following are acronyms and abbreviations widely used in this report:
that management, in a management
                                            AECOM. . . . . . . . . . . . . . . . . . . . . AECOM Technology Corporation
decision, has sustained or agreed
should not be charged to the agency.        BFN. . . . . . . . . . . . . . . . . . . . . . . . Browns Ferry Nuclear Plant
Final Action – The completion of all        CIGIE. . . . . . . . . . . . . . . . . . . . . . . C
                                                                                                ouncil of the Inspectors General on
management actions, as described in a                                                          Integrity and Efficiency
management decision, with respect to
audit findings and recommendations.         CEO. . . . . . . . . . . . . . . . . . . . . . . . Chief Executive Officer
When management concludes no action
is necessary, final action occurs when a    CRS . . . . . . . . . . . . . . . . . . . . . . . . Center for Resource Solutions
management decision is made.                DOL. . . . . . . . . . . . . . . . . . . . . . . . Department of Labor
Funds Put To Better Use – Funds,            ERM. . . . . . . . . . . . . . . . . . . . . . . . Enterprise Risk Management
which the OIG has disclosed in an
audit report, that could be used            ERP. . . . . . . . . . . . . . . . . . . . . . . . energy right® Program
more efficiently by reducing outlays,
deobligating program or operational         IG. . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General
funds, avoiding unnecessary
                                            IG Act. . . . . . . . . . . . . . . . . . . . . . Inspector General Act, as amended
expenditures, or taking other
efficiency measures.                        MSPB . . . . . . . . . . . . . . . . . . . . . . Merit System Protection Board

Management Decision – The                   IT. . . . . . . . . . . . . . . . . . . . . . . . . . Information Technology
evaluation by management of the
audit findings and recommendations          Marshall Miller. . . . . . . . . . . . Marshall Miller & Associates
and the issuance of a final decision by
                                            NIMS. . . . . . . . . . . . . . . . . . . . . . . National Incident Management System
management concerning its response
to such findings and recommendations.       NRC. . . . . . . . . . . . . . . . . . . . . . . . Nuclear Regulatory Commission
Questioned Cost – A cost the IG             O&M. . . . . . . . . . . . . . . . . . . . . . . Operation and Maintenance
questions because (1) of an alleged
violation of a law, regulation, contract,   OIG. . . . . . . . . . . . . . . . . . . . . . . . . Office of the Inspector General
cooperative agreement, or other
                                            PSAs . . . . . . . . . . . . . . . . . . . . . . . Public Service Announcements
document governing the expenditure
of funds; (2) such cost is not supported    SOX . . . . . . . . . . . . . . . . . . . . . . . . Section 404 of the Sarbanes-Oxley Act of 2002
by adequate documentation; or (3) the
expenditure of funds for the intended       TVA. . . . . . . . . . . . . . . . . . . . . . . . Tennessee Valley Authority
purposes was unnecessary
or unreasonable.

Unsupported Costs – A cost that
is questioned because of the lack of
adequate documentation at the time
of the audit.                                                                                                                                        t
                                                                                                                                                     v
                                                                                                                                                     a

                                                                                                                                                     57
                                                                                                                                                     o
                                                                                                                                                     i
                                                                                                    Semiannual Report | Rebuilding the Foundation.
                                                                                                                                                     g
     WHAT IS TVA?
                                              >   Power Generation
                                              • A federal government corporation, created on
                                                 May 18, 1933, serving a seven-state region
                                              • Nation’s largest public power system
                                              • Composed of:
                                              	         - 29 hydroelectric plants
                                              	         - 1 pumped-storage plant
                                              	         - 3 nuclear sites
                                              	         - 11 coal-fired power plants
                                              	         - 11combustion turbine plants
                                              	         - 2 diesel generator sites
                                              	         - 1 wind energy site
                                              	         - 1 digester gas site
                                              	         - 1 biomass co-firing site
                                              	         - 15 solar energy sites
                                              • 33,925 megawatts capacity
                                              • 158 billion kW hours generated (FY 2008)
                                              • $10.4 billion in annual revenue (FY 2008)
                                              • 12,219 employees



                                              >   Transmission
                                              • 99.999 percent reliability for nine years in a row
                                              • 80,000 square-mile service area
                                              • 15,856 miles of transmission line



                                              >   Customers
                                              • 158 power distributors
                                                 (municipalities and cooperatives)
                                              • 62 directly served customers
                                              • 11 power exchange arrangements
                                              • 9 million people served


                                              >   Stewardship
                                              • Nation’s fifth-largest river system
                                              • 293,000 acres of public land
                                              • 800 miles of commercially navigable water
                                                 transporting more than 50 million tons of cargo
t                                             • 49 dams and reservoirs
v
a

58
o
i
     Semiannual Report | Rebuilding the Foundation.
g
The OIG is an independent organization charged with conducting
audits, inspections, and investigations relating to TVA programs
and operations, while keeping the TVA Board and Congress fully
and currently informed about problems and deficiencies relating
to the administration of such programs and operations.

The OIG focuses on (1) making TVA’s programs and operations
more effective and efficient; (2) preventing, identifying, and
eliminating waste, fraud, and abuse and violations of laws, rules,
or regulations; and (3) promoting integrity in financial reporting.

If you would like to report to the OIG any concerns about fraud,
waste, or abuse involving TVA programs or violations of TVA’s
Code of Conduct, you should contact the OIG Empowerline
system. The Empowerline is administered by a third-party
contractor and can be reached 24 hours a day, seven days a week,
either by a toll-free phone call (1-877-866-7840) or over the
Web www.oigempowerline.com. You may report your concerns
anonymously or you may request confidentiality.

Report Concerns to the OIG Empowerline.




                 A confidential connection for reporting fraud,
                         waste or abuse affecting TVA.
               www.OIGempowerline.com
                   1-877-866-7840
                 EmPowerline™ is sponsored by the Office of the Inspector General
                              and operates independently of TVA.




                                                                                                                              t
                                                                                                                              v
                                                                                                                              a

                                                                                                                              59
                                                                                                                              o
                                                                                                                              i
                                                                             Semiannual Report | Rebuilding the Foundation.
                                                                                                                              g
                                  Tennessee Valley Authority
                                Office Of The Inspector General
                                    400 West Summit Hill Drive
                                    Knoxville, Tennessee 37902



Semiannual Report | Rebuilding the Foundation.
